<html>
<title> - LEGISLATIVE HEARING ON H.R. 1288, H.R. 1494, H.R. 1623, H.R. 1809, H.R. 2086, H.R. 2138, H.R. 2189, H.R. 2341, H.R. 2382 AND H.R. 2423</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





LEGISLATIVE HEARING ON H.R. 1288, H.R. 1494, H.R. 1623, H.R. 1809, H.R. 
     2086, H.R. 2138, H.R. 2189, H.R. 2341, H.R. 2382 AND H.R. 2423

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FRIDAY, JUNE 28, 2013

                               __________

                           Serial No. 113-27

                               __________

       Printed for the use of the Committee on Veterans' Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  U.S. GOVERNMENT PRINTING OFFICE

82-243                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
MARK AMODEI, Nevada                  BETO O'ROURKE, Texas
PAUL COOK, California                RAUL RUIZ, California
                                     GLORIA NEGRETE MCLEOD, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.













                            C O N T E N T S

                               __________

                             June 28, 2013

                                                                   Page

Legislative Hearing On H.R. 1288, H.R. 1494, H.R. 1623, H.R. 
  1809, H.R. 2086, H.R. 2138, H.R. 2189, H.R. 2341, H.R. 2382 And 
  H.R. 2423......................................................     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman, Disability Assistance and Memorial 
  Affairs........................................................     1
    Prepared Statement of Hon. Runyan............................    25
Hon. Dina Titus, Ranking Minority Member, Subcommittee on 
  Disability Assistance and Memorial Affairs.....................     2
    Prepared Statement of Hon. Titus.............................    25
Hon. Jeff Miller, Chairman, Full Committee, Veterans' Affairs, 
  U.S. House of Representatives..................................     3
    Prepared Statement of Chairman Miller........................    26
Hon. Gloria Negrete McLeod, U.S. House of Representatives........     4
Hon. Paul Cook, U.S. House of Representatives....................     6
Hon. Beto O'Rourke, U.S. House of Representatives................     6

                               WITNESSES

Hon. G.K. Butterfield, U.S. House of Representatives (NC-01).....     8
    Prepared Statement of Hon. Butterfield.......................    27
    Executive Summary of Hon. Butterfield........................    28
Hon. Christopher Gibson, U.S. House of Representatives (NY-19)...     9
    Prepared Statement of Hon. Gibson............................    29
    Executive Summary of Hon. Gibson.............................    29
Hon. Kevin McCarthy, U.S. House of Representatives (CA-23).......    18
    Prepared Statement of Hon. McCarthy..........................    30
Verna Jones, Director, Veterans Affairs and Rehabilitation 
  Commission, The American Legion................................    11
    Prepared Statement of Ms. Jones..............................    31
Alexander Nicholson, Legislative Director, Iraq and Afghanistan 
  Veterans of America............................................    13
    Prepared Statement of Mr. Nicholson..........................    35
Heather Ansley, Esquire., MSW, Vice President of Veterans Policy, 
  VetsFirst, a program of United Spinal Association..............    15
    Prepared Statement of Ms. Ansley.............................    39
    Executive Summary of Ms. Ansley..............................    44
Thomas Murphy, Director, Compensation Service, U.S. Department of 
  Veterans Affairs...............................................    22
    Accompanied by:

      Richard Hipolit, Assistant General Counsel, U.S. Department 
          of Veterans Affairs

                        STATEMENT FOR THE RECORD

Hon. Thomas J. Rooney............................................    45
Disabled American Veterans (DAV).................................    46
Paralyzed Veterans of America (PVA)..............................    51
J. Don Horton....................................................    53

 
LEGISLATIVE HEARING ON H.R. 1288, H.R. 1494, H.R. 1623, H.R. 1809, H.R. 
     2086, H.R. 2138, H.R. 2189, H.R. 2341, H.R. 2382 AND H.R. 2423

                         Friday, June 28, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 11:34 a.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Committee] presiding.
    Present: Representatives Runyan, Cook, Titus, O'Rourke, and 
Negrete McLeod.
    Also Present: Representative Miller.

              OPENING STATEMENT OF CHAIRMAN RUNYAN

    Mr. Runyan. Good morning, this legislative hearing on H.R. 
1298, H.R. 1494, H.R. 1623, H.R. 1809, H.R. 2086, H.R. 2138, 
H.R. 2189, H.R. 2341, H.R. 2382 and H.R. 2423 will now come to 
order.
    Today, we have a large number of bills before us and there 
is a high level of interest in the policy areas that they 
address, particularly the backlog of disability benefits 
claims. Therefore, in the interest of time, I will forego a 
lengthy opening statement and just briefly touch upon on one 
bill on today's agenda, which I am the author of, H.R. 2423. 
The Disabled Veterans Access to Medical Examinations 
Improvement Act has three main objectives.
    First, the bill would extend the authority of the Secretary 
of Veterans Affairs to enter into contracts with private 
physicians to conduct medical disability evaluations.
    With the passage of this bill the successful program 
allowing physicians outside of the VA to conduct contract 
examinations would continue for an additional three years 
through 2016.
    This would allow VA more quickly to evaluate the veteran's 
disability and facilitate the access to the care they need.
    Second, this bill would also extend the license portability 
to contract examination providers, meaning that physicians with 
an active state license may provide C&P examinations in another 
state because they are working on behalf of the Federal 
government.
    Although the VA and DoD already provide licensed 
portability for physicians working directly for them, this 
authority is not extended to contract examination providers.
    This provision is designed to facilitate the C&P exam 
process by allowing the contract physicians the flexibility to 
travel and assist in areas that are experiencing lengthy delays 
in scheduling examinations.
    Finally, this piece of legislation would also expand the 
number of regional offices allowed to utilize contract 
examinations from ten to fifteen.
    In addition, this would require the secretary to determine 
which regional offices would benefit most from the use of the 
contract examinations by performing data analysis of the 
backlog and disability examination wait times.
    C&P examinations are a key component of the disability 
claims process, therefore expanding the authority and scope of 
the contract examination process merits consideration.
    It is my hope that veterans more quickly receive the 
necessary medical evidence for their claim. This will cut down 
the overall development and processing time, resulting in a 
faster issuance of a final decision.
    Again, in the interest of time, I would like to reiterate 
my request that today's witness abide by the decorum and the 
rules of this hearing and summarize your statement in five 
minutes or less during our oral testimony. We have a large 
number of bills on the agenda today, and I want to make sure 
everybody is heard in a timely manner.
    I would also remind everybody present and without any 
objection your written testimony will be made part of the 
hearing record.
    I appreciate everyone's attendance and I now call on 
Ranking Member, Ms. Titus, for her opening statement.

    [The prepared statement of Chairman Runyan appears in the 
Appendix]

              OPENING STATEMENT OF HON. DINA TITUS

    Ms. Titus. Thank you, Mr. Chairman. I apologize for being 
late and I will follow your example. I also want to thank you 
for your continued leadership on these issues facing our 
veterans and thank you for this hearing.
    We do have a number of bills. I would just highlight a 
couple that are addressing the backlog, which we have heard so 
much about from my colleagues who are present today.
    On the agenda is H.R. 1623, which is the VA Claims 
Efficiency Through Information Act of 2013. This is brought to 
us by Representative McLeod of the DAMA Subcommittee. H.R. 1623 
requires the VA to track time that is spent evaluating each 
type of medical condition in a veterans disability claim and 
the performance of each regional office in handling those 
claims.
    Information is always key and it gives us strength in 
making better policy. So understanding which medical conditions 
consume the most time to process will help us understand the 
agencies backlog and then shape procedures that can help 
expedite the progress of a claim.
    It would also ensure that the VBA builds in detailed 
measures which will, ultimately, lead to gains in efficiency, 
again, for better understanding and addressing the backlog.
    Next we have H.R. 1809, known as the Faster Filing Act. 
This is proposed by Representative O'Rourke, also of the DAMA 
Subcommittee.
    This bill would help encourage and educate veterans about 
the various methods that may increase the timeliness of their 
claims, such as utilizing the new fully developed claims 
program.
    The fully developed claims program will not only help 
reduce the backlog significantly, but it will also allow 
veterans to do their claims in appropriate time period and then 
get an extra year of benefits as an incentive.
    So, this will encourage veterans to utilize the approach 
that gets them through faster.
    Finally, my own bill, H.R. 2086, the Pay As You Rate bill, 
would require the VA to pay for medical conditions as they are 
adjudicated in the electronic system.
    Currently, veterans typically receive payment when all the 
medical conditions within a claim are fully addressed and 
adjudicated. This legislation would pay as you rate. It would 
require the VA to pay veterans on individual medical conditions 
as each one is adjudicated, so you would get paid at a faster 
rate and at least get a little bit of money before you have to 
go through the whole process.
    We know that veterans returning from Iraq and Afghanistan 
average 8.5 different conditions in their claims. Some of these 
are complex and time consuming, but some are simpler and can be 
addressed in a more timely fashion.
    We believe the VA should compensate veterans for these 
simpler parts of their claim as early as possible while 
continuing to work on the more difficult ones.
    These just seem like common sense approaches and I hope Mr. 
Chairman, working together, we can move these bills to the 
floor as quickly as possible.
    We all are concerned about the backlog. We want to get rid 
of all those mountains of paper and have a more efficient 
effective system and help our RA's address our veterans claims 
as quickly as possible, because that's what they deserve. Thank 
you and I yield back.

    [The prepared statement of Hon. Dina Titus appears in the 
Appendix]

    Mr. Runyan. Thank you, Gentle Lady, and I know just about 
every Member in the room wants to speak on a bill, so we will 
get this moving. I yield to Chairman Miller for his statement.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    Mr. Miller. Thank you very much, Mr. Chairman. I appreciate 
it and I, too, will make my statement as brief as possible. 
H.R. 2189 establishes a commission or a task force basically to 
handle, hopefully, the issue as it relates to the disability 
claims backlog and I think everybody in this room is very 
familiar that VA has, in fact, brain stormed over recent weeks 
trying to get a handle on the claims that are out there today 
and I do hope as well as each Member of this Committee that, in 
fact, their efforts are successful. But I think the pattern 
that we have seen of starting new initiative after new 
initiative after new initiative is just not really the way to 
handle the situation that is presented before us right now.
    I think what we need is an outside independent analysis to 
clearly identify, first, why the backlog exists and even as 
important, if not more so, to prevent the backlog from ever 
occurring again.
    If we don't know where we have been, how are we going to 
get where we are going, so to say? And so, I would say that by 
assembling this team it would help work towards VA's goal in a 
fresh and renewed pattern, if possible.
    Recommendations would be made. Team members would be 
appointed by Congress, the President, and would be represented 
by folks from the Department of Veterans Affairs. I would say 
that they would pull a perspective from the veterans service 
organizations community, as well as private-sector leaders in 
their fields of expertise including claims processing, 
logistics and product tracking.
    Finally, the bill would require an initial report on the 
group's progress and then a final report being done 180 days 
within final implementation of this particular law. And I have 
heard some people say that this is unnecessary and I would just 
say, it is an opportunity really. It is necessary. It is not 
going to be a delay tactic by any stretch of the imagination 
and, in fact, VA has made some progress on the backlog out 
there.
    We have all heard about it, read about it in the news, but 
the overall processing times still remain well over the 
department's 2015 goal. Even with the improvement, VA has shown 
65 percent of the claims that exist out there today are still 
in a backlog situation.
    So, I think now is not the time to take the foot off the 
gas. We need to continue moving forward. I would say that this 
is not different from VA's recent decision to work claims that 
were pending in excess of two years. This was not originally a 
part of the VA plan. They did a course correction and I think 
that it has produced some valuable time saving on those folks.
    I would say, again, it would irritate me if I were a 
veteran that had had a claim for two or three years pending and 
then all of a sudden, miraculously, within 30 days my claim was 
adjudicated. We need to find out why it sat there for so long.
    So, again, to my colleagues, I would encourage all of you 
to support H.R. 2189. It's a bill to establish a commission or 
task force to evaluate the backlog of disability claims at VA. 
And with that I yield back.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

    Mr. Runyan. I thank the Chairman for that and I will 
recognize Ms. McLeod for her statement.

        OPENING STATEMENT OF HON. GLORIA NEGRETE MCLEOD

    Ms. Negrete McLeod. Thank you, Mr. Chairman Runyan and 
Ranking Member Titus. With your permission, I would like to 
make a few remarks on H.R. 1623. Each year as veterans apply 
for disability benefits through the VA, the number of medical 
conditions and their compensation claims increase. This is 
because more veterans are surviving war injuries and older 
veterans are having more health challenges as they age.
    A condition related to PTSD is very different than one 
related to hearing loss. Staff at the Veterans Benefit 
Administration do not always have the expertise with the very 
different conditions. Therefore, if any single medical 
condition in a claim is incorrectly evaluated, the entire claim 
is delayed from receiving a decision.
    This prevents the VA from processing claims in a timely 
manner and contributes to the backlog. The public has no 
information on how many claims include PSD traumatic 
amputations from IEDs or heart disease as medical conditions.
    The VA and Congress cannot sufficiently insure that offices 
at the Veterans Benefits Administration have the knowledge base 
necessary to process disability claims unless this information 
is publicly available and regularly updated.
    The lack of public statistics about the claims backlog does 
the VA and veterans a disservice in demonstrating the progress 
being made and setting the VA on a path to reduce the number of 
outstanding claims.
    All that is seen at the VA's Monday morning workload report 
is a number of pending claims. No data showing the number of 
completed claims for the previous month or year is available. 
Nor is the progress shown that is being made at the regional 
office given during any month or week.
    The VBA's recent efforts to reduce the claims backlog 
through clearing out the oldest cases is admirable, but this is 
not a long term solution to providing veterans the compensation 
they earned while serving our country.
    H.R. 1623 is one part of the solution. It provides 
processing of claims by requiring VBA to track the time spent 
evaluating every medical condition in a disability compensation 
claim. It improves the efficiency of regional offices by 
requiring the VBA to report the monthly and weekly performance 
in processing claims.
    I applaud the VA's recent decision to move more information 
about the accuracy of rating disability claims and the average 
number of days a claim is pending at each of its regional 
offices.
    Beyond the requirements already enacted by the VA, H.R. 
1623 would require the VA to report the number of completed 
claims by region and by medical condition for the current and 
preceding month and year. This information will be reported and 
updated weekly on its Web site.
    Each month, veterans suffer economic hardships from delays 
in their disability benefits. If we knew how many claims were 
completed from month to month and which offices were struggling 
to process particular medical conditions, the VA could quickly 
direct resources to address the problem and Congress would have 
a better understanding how the VA allocates funding between 
regional offices. And that would assist them in receiving 
benefits to those who need it the most.
    Some concerns have been raised about how these reporting 
requirements create more work for the VA. However, all efforts 
for the veterans who serve our country should be taken.
    This bill has the support of the Iraq and Afghanistan 
Veterans of America and the Association of the United States 
Navy.
    The bill's goal is to work with the VA and its employees, 
many of whom are veterans. We look forward to H.R. 1623 to be 
part of ending the claims backlog. Thank you and I yield back.
    Mr. Runyan. Thank you, Gentle Lady. With that, Mr. Cook.

              OPENING STATEMENT OF HON. PAUL COOK

    Mr. Cook. Thank you, Mr. Chairman. H.R. 2382, The 
Prioritizing Urgent Claims for Veterans Act gives priority 
status to claims submitted by veterans who are most in need of 
VA services.
    This bill requires the Department of Veterans Affairs to 
give priority status and process claims immediately when filed 
by veterans who meet any of the following conditions: veterans 
who have reached the age of 70, veterans who are terminally 
ill, or veterans with life threatening illnesses.
    The intent of this legislation is to give priority to 
veterans who have urgent needs. And to the veterans in the 
military that are listening to this, it is almost analogous to 
combat situations when somebody is wounded and medevaced. And 
when they are medevaced they go to a casualty clearings station 
or a ship or what have you, they prioritize the triage system 
and sometimes somebody who has, you know, maybe shrapnel in the 
back or something like that, which is serious but it is not a 
sucking chest wound or somebody that is not missing their right 
arm or right leg or have head injuries, they have to make that 
decision.
    The system is backed up and people that have served in 
Vietnam, Korea, even World War II, they are reaching that age 
where--and I am one of them, where we have the impression that 
hey, if it is going to take a year and a half, why bother?
    And if you are going to take care of us and those that have 
served in those situations, I think you have to have a priority 
of that.
    Somebody who is terminal, obviously, that is very, very 
difficult to everybody, the services that would be rendered 
would be much, much different than, of course, life threatening 
illnesses.
    This is not designed to limit status to these three 
categories. In fact, we talked to the staff, actually look for 
amendments that apply to veterans with good cause, but we want 
to insure priority for these groups.
    I am looking forward to working with my colleagues in the 
DAV to identify other potential groups that would merit 
priority status before the mark up.
    Until the claims backlog is resolved, I think we have got 
to make it a priority to care for those veterans who are in 
need of those benefits they earned while serving their Nation.
    And I especially want to thank Congresswoman Gloria Negrete 
McLeod for co-sponsoring this important piece of legislation. 
Thank you, Mr. Chairman. I yield back the remainder of my time.
    Mr. Runyan. Thank you, Gentleman. And I will recognize Mr. 
O'Rourke now.

            OPENING STATEMENT OF HON. BETO O'ROURKE

    Mr. O'Rourke. Thank you, Mr. Chairman. I also want to speak 
on the issue of resolving this problem that we have with 
disability claims backlog at the VBA and H.R. 1809 or the 
Faster Filing Act, seeks to help resolve this problem.
    The veterans whom I serve in El Paso are waiting on average 
480 days to have their claims resolved and the regional office 
that is processing those claims is in Waco, Texas.
    Last week I got to visit Waco, spent some time with the 
Director, John Limpose, was joined by the Deputy Under 
Secretary for VBA, Diana Rubens, and we actually walked through 
this enormous facility that is processing all these claims for 
more than half the State of Texas, including El Paso.
    And it really struck home some of the problems that we have 
there. As we were turning a corner to go down another hallway, 
we were almost run over by a gentleman pushing a hand truck 
that had a stack of paperwork that was four or five feet high 
and that was one veteran's claim.
    So it is clear that we have to do everything we can to help 
the VA transition into a digital format. It is going to make it 
far easier to resolve these claims, to process them and to do 
so in a very effective, efficient manner and in a way that is 
far more accurate than we are doing today.
    So, the Faster Filing Act requires the VA to track and post 
the average turnaround time for the different manners in which 
a veteran can file a claim from the fastest, which is a fully 
developed claim filed online, to the slowest, which is one that 
could perhaps be scrawled on the back of a napkin and submitted 
to the VA, which they would be required to accept and process.
    It also requires the VA to remind veterans that if they 
file a fully developed claim between August 6th of this year 
and August 6th of 2015, that veteran is entitled to an extra 
year's worth of benefits.
    So, not only will they have their claim resolved more 
quickly than the traditional method, they can have that claim 
resolved in under 100 days versus 480 days on average for El 
Paso, but they will get an extra year's worth of benefits.
    And we want to make sure and actually require through this 
bill that the VA publish that information, make it available to 
veterans as they are filing, help VSOs make that information 
available to veterans.
    It costs us nothing to do this. It enjoys bipartisan 
support. It makes a lot of common sense. And I want to thank 
Mr. Cook and the supporters that we have in the Senate, Senator 
Heinrich and Senator Heller who joined us on a letter to the VA 
asking the VA just to implement this bill without having to 
make it law, because it, again, seems like a common sense 
solution. Something that should be easy enough for them to do 
and something that doesn't cost any money.
    So, hopefully, we will have the support of this Committee 
and if the VA does not act on the recommendations, we can make 
this law in the near future. And with that I yield back. Thank 
you.
    Mr. Runyan. Thank the Gentleman, and at this time I would 
like to welcome my colleagues from the House who are sitting at 
the witness table, and first we will hear from the Honorable 
G.K. Butterfield from North Carolina who is sponsoring H.R. 
1288 and then we will hear from the Honorable Chris Gibson from 
New York who is sponsoring H.R. 1494.
    And we are expecting arrival of Honorable Kevin McCarthy 
from California who is sponsoring 2138 and will be joining us 
following a prior commitment.
    Thank you all for accommodating the vote schedule and I 
would like to welcome you to this legislative hearing and your 
complete written statements will be entered into the hearing 
record and with that, Congressman Butterfield, we will start 
with you and you are now recognized for your statement.

               STATEMENT OF HON. G.K. BUTTERFIELD

    Mr. Butterfield. Thank you very much, Mr. Chairman and to 
the Ranking Member and other Subcommittee Members. Thank you so 
very much for allowing me the opportunity to testify today in 
support of my bill, H.R. 1288, the World War II Merchant 
Mariner Service Act.
    Seeing this bill signed into law is a personal priority and 
I am hopeful that this hearing signals that I am one step 
closer to achieving that goal on behalf of World War II 
Merchant Mariners.
    As this Subcommittee certainly knows insuring that 
individuals who sacrifice so much in service to our country, 
receive the recognition they deserve is one of the most 
important jobs that we have as Members of Congress.
    For the past three congresses, I have led a strong 
bipartisan effort to recognize individuals that served our 
country during World War II in the Merchant Marines.
    In this Congress I am, again, joined by a strong bipartisan 
coalition of, at present, 84 co-sponsors in support of this 
bill.
    Five of the bill's co-sponsors are Members of this 
Committee including Full Committee Ranking Member, Mr. Michaud. 
And I thank each of them for their support.
    Passing this bill, Mr. Chairman, is the right thing to do 
and now is the right time to do it. The bill is very simple. It 
would expand the types of documentation accepted by the Federal 
Government when a very small group of Mariners that operated 
tugboats and barges domestically during the war apply for 
veteran status.
    Once they are recognized Mr. Chairman, as a veteran, they 
would be provided benefits limited only to burial and a U.S. 
flag.
    And let me repeat that, qualifying Merchant Mariners who 
can prove service through expanded acceptable documentation 
would receive only burial benefits and the honor of being 
recognized by their country for their sacrifice and service, 
period.
    My bill does not provide for health coverage or disability 
payments or payouts of any kind to Merchant Mariners who served 
during the war and it does not impact direct spending.
    Currently, the required documents to satisfactorily prove 
service no longer exist or can be extremely hard to find. I 
have included documents in my submitted testimony that 
demonstrate that many of these necessary documents actually no 
longer exist or they never existed, largely because of 
decisions by the Government over several decades and I ask now 
that they be included in the record.
    As a veteran of the U.S. Army, myself, it is important to 
note that this bill takes nothing away from the men and woman 
who have served and continue to serve our country in 
traditional ways. It does not diminish the importance of their 
sacrifices and does not reduce the esteem in which we all hold 
veterans of our traditional armed forces.
    These Mariners have gone unrecognized, Mr. Chairman, for 
more than 70 years. They deserve to be recognized for their 
service because they too helped to protect our great Nation.
    My bipartisan bill has been scored by the CBO to have a 
insignificant and de minimis effect on direct spending over a 
ten year period. Estimates show that fewer than 2,000 of these 
Mariners are still living, less than 2,000. In fact, it is very 
possible that there are only hundreds left today.
    We are quickly running out of time to recognize these few 
remaining Americans that stood up for freedom and democracy 
when we needed them the most.
    Without weapons or formal training, these individuals 
risked their lives and tragically too many gave their lives 
defending our country. For those that are still living, and 
there are some in my district, we must not let their efforts 
and contributions go unrecognized while we still have a chance 
to do it.
    Finally, the passing of Senator Lautenberg, from New 
Jersey, the last remaining World War II veteran in the Senate, 
is a strong reminder to all of us in Congress that if we are to 
honor and recognize these Mariners, the time to do so is now.
    And so I thank you, Mr. Chairman, and to the Ranking Member 
and all of my colleagues for yielding time today to allow me to 
make this statement in support of my bill. Thank you so very 
much.

    [The prepared statement of Hon. G.K. Butterfield appears in 
the Appendix]

    Mr. Runyan. Thank you, Congressman Butterfield. And with 
that, Congressman Gibson, you are now recognized for five 
minutes.

              STATEMENT OF HON. CHRISTOPHER GIBSON

    Mr. Gibson. Well, thank you. I would like to begin by 
thanking you, Mr. Chairman, the Ranking Member and all the 
distinguished Members of the Committee and as a veteran myself, 
I greatly appreciate all these bills that I have heard from 
this morning. I think they are going to make a difference.
    And I appreciate the opportunity to come before the 
Committee to discuss H.R. 1494, the Blue Water Navy Ship 
Accountability Act. An important bill designed to help our Blue 
Water Navy Vietnam veterans.
    During the Vietnam War our Government sprayed 20 million 
gallons of herbicide Agent Orange to remove jungle foliage from 
the Vietnam terrain. Agent Orange contains dioxin, a toxic 
chemical residue found in locations where Agent Orange was used 
or stored.
    The U.S. Government has since linked dioxin to harmful or 
serious medical conditions effecting those who served in or 
around Vietnam, including non-Hodgkin's lymphoma, prostate and 
other cancers, Type II Diabetes and Parkinson's Disease.
    Recognizing the debt owed to veterans who were exposed to 
Agent Orange, Congress passed and President George H. W. Bush 
signed into law the Agent Orange Act of 1991.
    The 1991 law empowered the Secretary of Veterans Affairs to 
declare certain illnesses to be presumed to have been caused by 
exposure to Agent Orange and enabled Vietnam veterans to 
receive disability compensation for related conditions.
    However, in 2002 the VA limited the scope of these 
presumptive illnesses covered within the act to only those 
veterans who could provide proof that they had boots on the 
ground in Vietnam.
    Boots on the ground encompassed land forces and the 
Riverine or as commonly called, the Brown Water Navy. As a 
result, veterans who served in the waters off the coast of 
Vietnam, commonly called Blue Water veterans, were forced to 
file individual claims with the VA to restore their benefits.
    The VA has denied almost 33,000 such claim since 2009. 
Under current law, Blue Water Navy veterans who do not set foot 
in Vietnam or serve aboard ships that operated in the inland 
waterways of Vietnam between January 9, 1962 and May 7, 1975 
have the burden of proof to demonstrate exposure of Agent 
Orange and the connection to their illnesses. These claims are 
decided on a case by case basis.
    The Bureau of Veteran Affairs maintains a list of U.S. Navy 
and Coastguard ships that operated within the vicinity of 
Vietnam. Some offshore vessels docked to the shore of Vietnam, 
operated in Vietnam's close coastal waters and sent smaller 
vessels ashore or conducted operations in the inland waterways 
of Vietnam.
    Current VA policy for when a veteran files an Agent Orange 
exposure related claim requires the VA regional offices to 
forward a request for such to the Department of Defenses Army 
and Joint Services Records Research Center and evidence 
confirmed through military records must show that the veteran 
was aboard one of these ships that operated close to or in the 
shore in order to receive benefits. However, this list is 
imperfect and it is not comprehensive.
    Our Vietnam veterans should not be made to wait any longer 
than necessary to receive their benefits. My bill would direct 
the JSRRC to do a comprehensive search to determine which ships 
are eligible for coverage under current law, reducing the wait 
time when new claims are filed.
    This would help veterans who are currently sick or in some 
cases have died and claims are being made by their surviving 
families. Passage of this bill will alleviate some of the 
current VA claims backlog our veterans are facing by 
practically determining what we know today rather than waiting 
until tomorrow when claims are made.
    In closing, I would like to also point out that the 
Congressional Budget Office has indicated that H.R. 1494 will 
have no significant cost and the bill enjoys support of major 
veterans organizations, such as the American Legion, the 
Veterans of Foreign War, the Military Officers Association of 
America, the Military Coalition, the Vietnam Veterans 
Association, the Association of the U.S. Navy and the Blue 
Water Navy Vietnam Veterans Association.
    Research has available documents to determine who is 
eligible under current law to receive presumptive coverage for 
exposure to Agent Orange.
    So, I thank you, Mr. Chairman. I thank the Ranking Member 
and I look forward to your questions. Thank you.

    [The prepared statement of Hon. Christopher Gibson appears 
in the Appendix]

    Mr. Runyan. Thank you, Congressman Gibson. And I know 
Congressman McCarthy is probably on his way, so we will 
continue to move forward.
    And also in the interest of time, we will forgo any 
questions of this panel. If you do have any questions, please 
submit them for the record.
    On behalf of the Subcommittee, I want to thank you for your 
testimony and you are now excused and I will ask the second 
panel to come forward.
    With this panel, first we will hear from Verna Jones, 
Director of Veterans Affairs and Rehabilitation Commission at 
the American Legion. Next, we will hear from Alexander 
Nicholson who is the Legislative Director for Iraq and 
Afghanistan Veterans of America and then we will hear from 
Heather Ansley, Vice President of Veterans Policy with 
VetsFirst.
    Thank you all for being here today. All of your statements 
will be entered into the record and, Ms. Jones, you are now 
recognized for five minutes for your testimony.

  STATEMENTS OF VERNA JONES, DIRECTOR OF VETERANS AFFAIRS AND 
   REHABILITATION COMMISSION, THE AMERICAN LEGION; ALEXANDER 
   NICHOLSON, LEGISLATIVE DIRECTOR FOR IRAQ AND AFGHANISTAN 
  VETERANS OF AMERICA; AND HEATHER ANSLEY, VICE PRESIDENT OF 
    VETERANS POLICY, VETSFIRST, A PROGRAM OF UNITED SPINAL 
                          ASSOCIATION

                    STATEMENT OF VERNA JONES

    Ms. Jones. Thank you. Good afternoon, Chairman, Ranking 
Member and Members of this Committee. Thank you for inviting 
the American Legion here this afternoon to express our views on 
legislation being considered today.
    A lot of these bills are created with the intent of helping 
deal with the backlog and that is important. We have to do 
something about it and I want to talk about that today.
    I started out as a department service officer in North 
Carolina helping veterans and for our service officers and the 
over 2,600 accredited representatives of the American Legion 
across the Nation, we deal with veterans everyday who come into 
our office asking for help dealing with the disabilities they 
acquired serving their country.
    We see their faces, we know their stories, we feel their 
pain. And it is easy to put a face with a problem when you have 
that in your office every day.
    I have had the opportunity since then to serve in various 
capacities helping veterans and now I am the director of the 
division of the American Legion that serves veterans across the 
country, whether it is helping them with their disability 
claims, to get benefits or their health care.
    I keep the faces of those veterans in my heart every day. I 
remember the very first veteran that I helped as a young 
service officer. He came into my office and we were going to go 
before a decision review officer because his claim had been 
denied. He was an early 30 year old man and what I saw before 
me was a man who looked twice that age because of his 
disability from serving his country.
    As we went in front of the decision review officer he 
started to tell his story. He talked about while serving his 
country he developed an illness and now he couldn't play with 
his children or dance with his wife or do the things that he 
thought a man should do for his family. He was unable to work. 
He had to quit work because his disability was so severe and it 
became dangerous for him to work.
    And as he told his story, I became emotional. I couldn't 
believe the person had endured such hardship. He stopped 
talking to the DSO and said to me, ``don't cry for me, feel 
happy for me, feel honored that I was able to serve my 
country.'' And knowing what I know now, if I had to do it all 
over again, I would still serve my country.
    The doctor had told him two years prior to that that in 
five years he would either be severely disabled or dead and he 
died two years later before his benefits were awarded.
    That is what I want you all to keep in mind as you consider 
every bill that comes before you. Think of the faces and the 
names of the people you know who served and keep them in mind 
and ask, are we doing the right thing for them? Some answers 
and decisions are so easy.
    H.R. 1494, the Blue Water Navy Ship Accountability Act, it 
is long passed time that we had a comprehensive list showing 
which ships did what in Vietnam.
    Let's get this done and make things easier for those 
Vietnam veterans and for the VA as they work on those claims.
    H.R. 2086, the Pay As You Rate Act, just helps the VA 
raters do what they are already allowed to do, but may not 
receive credit for it. And get some good news to the veteran 
and grant some of their issues even if the others are going to 
take a little while longer.
    Let's get some help and some money flowing in the homes of 
those veterans while they wait for the VA to rate the rest of 
their claim to get it done right.
    Other bills like H.R. 1623, H.R. 1809 are going to provide 
more information, more information to the interested 
stakeholder about the VA, how the VA is accomplishing their 
goal. More information to the veterans about their options for 
filing a claim. These things are only going to make the system 
run better, more transparently and more efficiently.
    The American Legion has been heavily involved in working 
through the fully developed claims process. We've traveled the 
country providing quality review visits and looking at the 
quality of those FDC claims. And it is helping veterans.
    It helps the veterans, it helps the VA get the information 
that they need up front and a veteran can help cut months off 
of their claim processing time.
    We are already doing this in offices across the country and 
I will tell you from my time there, it is working. We need to 
get the word out to the veterans and H.R. 1809 is going to help 
us do that.
    We are all here because we want to help veterans. Whether 
it is you in those chairs, whether it is the American Legion or 
other VSOs or people here listening to us, we all want to help 
the veteran. We are here because we want to get them some help 
and get the claims done right.
    Getting more information, more data out of the VA about how 
that process is going is only going to help all of the 
stakeholders in the process and make the right decisions about 
how to help veterans.
    It is going to help the veterans themselves make the right 
decisions about how to use the process to get their claims done 
promptly and accurately.
    Again, I would like to thank the Committee for considering 
these bills and for working hard to make sure that they are 
helping to guide the system and to make it work for veterans. 
And I will be happy to answer any questions that you may have 
for me.

    [The prepared statement of Verna Jones appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Jones. And with that I will now 
recognize Mr. Nicholson for his testimony.

                STATEMENT OF ALEXANDER NICHOLSON

    Mr. Nicholson. Thank you, Mr. Chairman. Ranking Member 
Titus, good seeing you, Mr. Chairman, as well. Other 
distinguished Members of the Committee, thanks for having us 
here.
    On behalf of Iraq and Afghanistan Veterans of America and 
our 270,000 members and supporters, we are grateful for the 
opportunity to offer our views and recommendations regarding 
these pieces of legislation before the Subcommittee today.
    As of this week, there are more than 800,000 claims pending 
before the VA, over half a million of which are still 
backlogged. But those who find themselves in need of benefits 
and care from the VA are more than just numbers.
    Each number represents a face, a person, a family and a 
story. And to help bring these stories to light before 
Congress, the media, and the American public, IAVA this week 
has launched a new digital tool called The Weight We Carry, 
which can be accessed and explored at theweightwecarry.org and 
we would encourage each of you and your staff to take a moment 
to look at this enlightening data visualization tool and use it 
to find real stories of real constituents from your States and 
your communities who are or were stuck in the backlog.
    IAVA believes that all veterans must have access to quality 
benefits, care, and related services. The men and women who 
volunteer to serve in our Nation's military do so with the 
explicit understanding that they and their families will be 
cared for during their period of service and also after their 
period of service should they sustain injuries or disability 
while serving.
    IAVA is therefore proud to offer our support for many of 
the bills pending before this Subcommittee and that are the 
subject of this hearing today.
    I want to mention just a couple of bills in my oral remarks 
today and focus on those, because as many of you know IAVA's 
number one issue this year has been the backlog.
    But before I do that I just wanted to mention the 
Chairman's bill, the Disabled Veterans Access to Medical Exams 
Improvement Act is one that we strongly support, because we 
believe that the extension of this authority is smart. We 
believe it is a proven tool that the VA can use to help it get 
through more claims quicker and more efficiently and we would 
even encourage the Committee to look at an extension of the 
ability of regional offices to use this authority beyond the 
ten or even the fifteen, that this would extend it to, to 
potentially all regional offices.
    I also wanted to mention Representative McCarthy's bill 
briefly. The Ending VA Claims Disability Backlog and 
Accountability Act. We have certainly had some concerns about 
the depth and substance behind the VA's backlog strategic plan 
and we believe that this bill seems to address some of those 
short comings that we and other VSOs have identified and have 
shared our concerns about for quite some time.
    But I want to focus mostly now on Chairman Miller's bill to 
establish a commission or task force to evaluate the underlying 
causes of the VA disability claims backlog.
    The existence and work of this task force would in no way 
impede the ongoing work of the VA to address problems that have 
already been identified. And it would simply not just study the 
matter from afar and issue a report years later. Instead, the 
Chairman has smartly and carefully crafted this bill to insure 
that the task force would augment and support the VA's ongoing 
work, contribute more added value to this effort, report on its 
findings early and often, and increase transparency throughout 
the process.
    The VA is certainly already working to address some of 
these issues and the confidence deficit that has resulted 
through these reforms such as moving to an all electronic 
filing system, increasing access to information, increasing 
staffing bandwidth and training, coordinating better with other 
elements within the VA and communicating more efficiently and 
effectively with DoD and other executive agencies.
    All of these are welcome reforms, but even the VA admits 
that there are still snags and challenges with which it needs 
help.
    The formation and existence of such a task force would 
facilitate getting the VA that coordination and outside help 
and would also be an important facilitator of looking ahead to 
potential future challenges so that we do not wind up in this 
unfortunate situation again, Mr. Chairman.
    IAVA strongly supports this bill and stresses again that it 
would in no way impede the good work and progress that the VA 
is already making on the backlog. Instead, the resulting task 
force would only help speed up that process and get the VA 
information, resources, and expertise it needs to meet its 
goals.
    That is, after all, the common goal of IAVA, other military 
and veterans service organizations, this Committee and the VA 
itself.
    Mr. Chairman, I will conclude there and thank you again for 
this opportunity to offer our views before the Subcommittee.

    [The prepared statement of Alexander Nicholson appears in 
the Appendix]

    Mr. Runyan. Thank you, Mr. Nicholson. And with that I will 
recognize Ms. Ansley for her testimony.

                  STATEMENT OF HEATHER ANSLEY

    Ms. Ansley. Chairman Runyan, Ranking Member Titus and 
distinguished Members of the Subcommittee, thank you for 
inviting VetsFirst to share our views today regarding the bills 
that are the subject of the hearing.
    My full testimony has been submitted for the record and I 
will now limit my comments to just a few of the bills that are 
before us today.
    First, we support H.R. 1623. This legislation would require 
VA to provide information regarding the processing times of 
claims by regional office and by medical condition.
    Although we support this legislation, we believe that the 
information collected by condition would be more useful if it 
included processing times for individual medical conditions by 
regional office, and also for those medical conditions for 
which most veterans seek compensation.
    Second, we support H.R. 1809. This legislation would 
require VA to provide veterans with information about 
processing times and claims for which benefits are awarded.
    We believe that providing veterans with the information 
they need to make informed decisions about their benefits 
claims is vital.
    We do have concerns however about the need to acknowledge 
receipt of information as part of submitting a claim for 
benefits.
    Third, we support H.R. 2086, this legislation would require 
VA to make interim payments of disability benefits when an 
issue is favorably decided for the veteran. We, again, urge 
swift passage of this legislation.
    Fourth, we support the intent of H.R. 2138. This 
legislation would require VA to fully implement its strategic 
plan for the elimination of the claims backlog. To ensure that 
the goal is met, VA would be required to develop a supplemental 
report that includes additional metrics and timelines for 
implementing that plan. And also accountability from the 
outside.
    VetsFirst believes that VA must be held accountable for 
meeting the goal of processing initial claims within 125 days 
at 98 accuracy. Thus, we believe that requiring continuing 
evaluations of metrics will show if progress is being made and 
will be helpful in insuring that VA is pursuing correct 
policies and procedures and making any course corrections that 
are needed along the way.
    We also believe, however, that the reporting requirements 
must be carefully monitored to insure that the information 
that's being collected is actually needed to facilitate and is 
not diverting critical resources.
    Fifth, H.R. 2189 would create a task force or commission to 
study the claims backlog. We are concerned that a commission or 
task force might hinder VA's current efforts by diverting 
resources from the overall push to address the backlog. 
However, VA must be held accountable for meeting its goal.
    We do believe that a commission or task force that is 
narrowly focused on the VA's current efforts related to the 
backlog would have benefit for veterans and the claims process.
    We also believe, however, that there is a need for a more 
broad-based commission or task force that would thoroughly 
evaluate the entire claims process, including the appeals 
process.
    Thus, we believe that a task force or a commission should 
focus on either the backlog of the initial claims or the 
broader claims process including the appeals, but not 
necessarily both.
    We would ask either that the legislation that has been 
proposed be limited in scope or that the timeframes and focus 
be broadened to include the many areas of concern.
    Sixth, we support H.R. 2382. This legislation would require 
the secretary to provide priority for veterans who are aged 70, 
terminally ill, or who have life-threatening illnesses.
    We strongly believe that statutory protections for our most 
vulnerable veterans are necessary to insure that benefits are 
available for those with heightened needs.
    We would suggest, however, that this legislation be amended 
to include those veterans who are homeless or who are suffering 
severe financial hardship.
    Seventh, we support H.R. 2423. This legislation would 
extend VA's authorization to use contract physicians to perform 
examinations for compensation exams.
    And we support this legislation because it would not only 
extend VA's authority, but would also allow VA to move 
resources to where they are most needed.
    Again, we thank you for the opportunity to share our views 
today. This concludes my testimony and we would be happy to 
answer any questions. Thank you.

    [The prepared statement of Heather Ansley appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Ansley. And with that I will 
begin the first round of questions and my first question is for 
Mr. Nicholson. You touched on it a little bit in your statement 
dealing with H.R. 2423.
    You commented on expanding the ROs up to 15. Is there 
anything else specifically dealing with contract examinations 
we could do to help the process that you could think of?
    Mr. Nicholson. Not off the top of my head, Mr. Chairman. I 
would just stress the fact that the reason that I believe--you 
know, we have evaluated the fact that expansion from ten to 15 
and even perhaps beyond would be a good idea is because, you 
know, one of the things we saw when the VA did its special 
claims processing initiative on two year and older claims, was 
that one of the factors that helped it get through so many 
claims that were so old in such a small amount of time that had 
languished for years, was increasing the capacity--essentially 
increasing the capacity of the Veterans Health Administration 
to tackle comp and pen exams.
    You know, we heard that they were scheduling on evenings 
and weekends, that they were really stepping up their 
coordination with VHA, DBA that is, with VHA to get those comp 
and pen exams done. So, that is why we think that anything that 
would further increase the capacity of VHA to get to and 
complete these comp and pen exams would drastically help with 
the backlog issue. And I think that, you know, is one of the 
things that sort of goes to show that and has proven that 
outside of the effectiveness of the pilot study with the ten 
regional offices already.
    Mr. Runyan. Thank you. And now on H.R. 2189, we know that 
IAVA led the charge in calling for the independent commission 
or task force to evaluate the current situation surrounding the 
backlog of claims.
    Can you elaborate on how you arrived at the conclusion that 
this was necessary, and why you continue to believe it is the 
best path forward?
    Mr. Nicholson. Yes, Mr. Chairman. I think the fundamental 
point behind why we decided to push so hard on the commission 
or task force to tackle the backlog issue is because, you know, 
we have been dealing with promises on the backlog and on many 
other issues from the VA for decades.
    We have seen an exponential explosion in the number of 
claims, for example, that are over the one year old, 2000 
percent in a four or five year period.
    We think it just rises to the level of a crisis and, you 
know, while we certainly have faith in, to an extent, and trust 
and are optimistic that the VA's leaders are moving in the 
right direction, there certainly has been some positive 
progress lately. We certainly encourage and applaud and 
acknowledge and recognize that.
    But there has been progress in the past that has slipped 
back to where we are today.
    Another fundamental reason, Mr. Chairman, is because this 
problem is not just within the VA. It's currently being 
handled, you know, just within the VA. This problem, though, I 
think the VA will tell you itself, is largely dependent upon 
cooperation from other agencies, especially the Department of 
Defense, to get records not only for active duty but especially 
regarding reserve members.
    It's dependent the Social Security Administration and there 
are lessons to be learned from outside of the Government 
itself. I think the roundtable that Chairman Miller held a 
couple of weeks ago with industry experts from the insurance 
field as well as some tech industry experts, was enormously 
helpful for the VA. I think the folks from the VBA who were 
here participating in that, found that to be enormously helpful 
and that's what this would do.
    A commission or task force would bring together not only 
members from--representatives from other Government agencies 
but from outside of the Government, expertise from the tech 
industry, from the insurance industry, et cetera, to assist the 
VA, but not only solve the current backlog crisis, but make 
sure it doesn't happen again.
    And that is one of the reasons we have been pushing for 
this so hard. We think the VA needs the help.
    Mr. Runyan. Okay. I actually have a couple more questions 
for the second round. I recognize Ms. Titus for her questions.
    Ms. Titus. Thank you, Mr. Chairman. First, I would like to 
say that I appreciate Ms. Ansley's comments about H.R. 2189 and 
the need to look at the appeals process.
    At a recent hearing I asked the question, aren't we going 
to be facing a backlog with appeals as well as a backlog with 
claims, especially as these claims are resolved that it is 
likely to get worse, and the response was yes. But when I asked 
what we were doing about it, they didn't have very many 
specifics. So I think you're right that the Commission needs to 
address both of those things.
    My other question and it really is just kind of an 
elaboration on a point that was made is to Ms. Jones. You said 
in reference to the bill H.R. 2086 that I introduced, Pay As 
You Rate, that this would put into legislation something that 
they are already doing but aren't getting rewarded for.
    Now, they have the authority to make interim payments, but 
I would ask you just how often that really occurs? And if 
employees aren't getting credit for that because it is not a 
case being resolved, there is really no incentive for them to 
do it, how can we change that process so they can get credit or 
that we do make sure that it is happening?
    Ms. Jones. Thank you. As I mentioned earlier, we conduct 
quality review visits and along with fully developed claim 
visits. As part of that process, we talk to employees and we 
ask them questions about the work credit system and some claims 
that they would rather rate and how they just go about day to 
day business.
    And from so many of those employees we hear that if they 
can have, for instance, a four issue claim and they can't rate 
all four of those issues, it is not likely that they are going 
to rate one issue and defer three.
    So, I think that one of the ways that we could help make 
sure that doesn't happen is through a revamp of the work credit 
system.
    Almost every employee that we ask across the Nation, all 
the ROs, we ask them if they think the work credit system is 
fair, most people don't think that it's productive. They think 
that it's counter-productive to what they are doing.
    So, I think to re-look at the work credit system and make 
it more conducive to being able to rate those claims and to do 
what the Pay As You Rate Act supports, to rate a claim, get 
some money going to those veterans and defer the other ones 
until they can come back and properly rate those claims.
    Ms. Titus. So, will you work with us to help us look at 
revamping that work credit system?
    Ms. Jones. Yes, ma'am. Absolutely.
    Ms. Titus. Okay. Thank you very much. Mr. Chairman, I yield 
back.
    Mr. Runyan. I thank the Gentle Lady. And now we have been 
joined by Congressman McCarthy and we would like to recognize 
him for five minutes to speak on his bill, H.R. 2138.

                STATEMENT OF HON. KEVIN MCCARTHY

    Mr. McCarthy. Well, thank you, Mr. Chairman. I appreciate 
you holding this hearing today and providing me the opportunity 
to testify in support of H.R. 2138, the Ending VA Claims 
Disability BackLog and Accountability Act.
    Every day the brave men and women of our Armed Forces risk 
their lives to preserve our freedom and the American way of 
life. We must honor those who have served when they are in need 
and that is why Congress has continued to increase VA funding, 
an uncommon occurrence in today's fiscal climate.
    Yet, the VA continues to fail with the needs of our 
veterans. With increasing frequency frustrated veterans, I 
represent complaints to me about waiting months, even years for 
a decision on their disability claims.
    Even more frustrating is that when my own inquiries to the 
VA of these cases are mostly ignored. So, I appreciate the help 
of this Committee for working with me to request a GAO audit to 
seek answers for our veterans.
    The GAO audit confirmed our veterans' worst complaints, 
that the VA is not processing disability claims in a timely 
manner. Immediately, Chairman Miller and I called on the 
Veterans Affairs Secretary to take swift action to implement 
the GAO recommendations to help our veterans.
    Unfortunately, when this Committee allowed me to question 
VA Under Secretary for Benefits, Allison Hickey, during a 
hearing, instead of acknowledging the problems identified by 
the GAO, she rejected many of the audit's findings.
    As I have repeatedly said, if the VA refuses to help our 
veterans the House would. Today's hearing on H.R. 2138 and the 
Chairman's bill H.R. 2189 and others, is keeping that promise 
to our veterans and is another step in holding the VA 
accountable.
    My bill addresses the GAO identified factors that 
contribute to the lengthy processing times of disability 
claims, improves Congressional oversight of the VA's effort to 
reduce the backlog and requires the VA to end the backlog by 
Memorial Day 2015.
    The bottom line is the current system is failing our 
veterans, the very men and women who have served our country 
and we know we can do better. We must end the backlog.
    I am confident that the legislation being considered today 
will help in this effort. That is why I thank you, Mr. 
Chairman, for all of your effort.
    I know this issue is a bipartisan issue and we want to 
solve it together to make sure our veterans have all that they 
need. I yield back.

    [The prepared statement of Hon. Kevin McCarthy appears in 
the Appendix]

    Mr. Runyan. I thank the Gentleman for his testimony. And we 
will resume--and you are welcome to leave, Congressman 
McCarthy, if you want.
    Mr. McCarthy. I thought you liked me.
    Mr. Runyan. We do, but your colleagues left earlier so, we 
kept that seat warm for you.
    Mr. McCarthy. Well, you all have a nice 4th.
    Mr. Runyan. Thank you. And we resume the round of questions 
with Ms. Negrete McLeod.
    Ms. Negrete McLeod. I really don't have any questions.
    Mr. Runyan. Okay, I actually have two more for this panel. 
Ms. Ansley, dealing with H.R. 2382, could you think of any 
additional categories that we might have to consider in this 
piece of legislation beyond homeless veterans?
    Ms. Ansley. Well, I think there is always a danger of 
adding so many that no one becomes priority again, but I think 
that at least bringing in the groups that VBA says it is 
already giving priority to and also looking at what the Board 
of Veterans Appeals does, which is to include the financial 
hardship.
    So, I think that those are cases that would at least be a 
good point to start with. And perhaps, then, even requiring a 
look back to see, how does that process work with those that 
are being given priority? Are they moving more quickly? And 
then are there other categories that we could add?
    So, I think we can start with what we already know is 
supposed to be working, whether it is Board of Veterans Appeals 
or whether it is what VA is already prioritizing and then go 
from there.
    Mr. Runyan. Thank you.
    Obviously, we have a lot of legislative ideas in front of 
us today and they are aimed at reducing and ultimately 
eliminating the backlog.
    Which one of the ideas in front of us today do you think 
will be the most effective in achieving this goal? Each? Ms. 
Ansley? And you don't have to say my piece.
    Ms. Ansley. Well, you just stole what I was going to say, 
Chairman. No, I think that there are many wonderful things here 
that could be done.
    I think accountability is probably one of the most 
important. I know you asked us for the most important, but I 
would have to say it is a two part issue. It is accountability 
for VA and making sure that they are reaching their goal of 
meeting the backlog. But also making sure that our veterans 
have the information that they need to make informed and 
educated decisions. That is something that my organization, in 
particular, is really promoting, is making sure veterans have 
what they need.
    So, I think that just as there is no one silver bullet that 
is going to address any of these issues, I think that looking 
at the most important thing is, what do our veterans need and 
what does VA need? And it is accountability and information.
    Mr. Runyan. Mr. Nicholson, you want to take a shot at it?
    Mr. Nicholson. I would love to, Mr. Chairman. I think it 
really depends on sort of what our goal is here. I mean, if our 
goal is to continue to try to put band-aids on the issue and 
maybe that is a rather crude way of characterizing it, but fix 
the small problems along the way, then I would say there are 
some that actually do accomplish that goal, that do fix 
problems that have been identified and that need fixing. For 
example, like I mentioned earlier, your bill, which would add 
capacity for VHA to get to comp and pen claims so that VBA can 
get those claims adjudicated quicker, I think would be 
extremely helpful.
    The Pay As You Rate Act, as well would get vets money 
quicker and then more time could be taken on the other parts 
that require more analysis.
    But if we want a more comprehensive solution that is going 
to go beyond just the quick fixes and try to look at how we can 
solve this problem comprehensively and fundamentally for the 
long term as well as the short term, then I would say the 
Chairman's Commission bill is going to go that entire way in 
doing that.
    Mr. Runyan. Thank you. Ms. Jones?
    Ms. Jones. Thank you. They are all very important because 
they all tend to fix or to help eliminate the backlog. If I had 
to choose right now, 1809. Because 1809 gives the veteran 
better information and it helps them recognize the benefits of 
the fully developed claims.
    And I have talked about that a little bit today because we 
have been heavily involved in that. We've had the opportunity 
to go around and to look to see what the service officers have 
given to the VA and then what the VA is doing with that 
information.
    Throughout our quality review visits we have been able to 
talk about fast letters and the directives that have been put 
out to the VA employees and make suggestions and have them 
understand a little bit better what is supposed to be done with 
that information.
    Veterans are getting paid more quickly through the FDC 
program. We have seen claims that have been adjudicated in 30 
days, 60 days, 90 days, 115 days and that is a lot better than 
the traditional claims process.
    And it gives the veteran an opportunity to take an active 
part in getting their claim through the system. Give the VA 
exactly what they need, get those claims back, awarded quickly 
to the veteran so they can move on, have a better quality of 
life, get the health care that they deserve, the benefits that 
they have earned and not have it take so long.
    It also helps the VA continue to move on more quickly with 
the claims that don't fall under the fully developed claims 
guideline. So 1809 is a very important piece of legislation 
today.
    Mr. Runyan. Thank you. Any other Members have any other 
questions? With that, thank you all for your testimony and you 
are now excused and I will ask the third panel to come forward.
    On this panel we will hear from Mr. Thomas Murphy, the 
Director of Compensation Service with the U.S. Department of 
Veterans Affairs, he is accompanied by Mr. Richard Hipolit, the 
Assistant General Counsel with the U.S. Department of Veterans 
Affairs.
    I want to note that because this hearing came together in 
short order and contains a large number of bills, VA's written 
testimony was unable to be cleared by OMB in time for today's 
hearing.
    I want to emphasize that I appreciate VA's willingness to 
be here today despite the fact that the agency's clear views 
are not yet available. They will be submitted for the record 
next week.
    Accordingly, I want to make sure that we are all clear that 
although VA will not be presenting oral remarks at today's 
hearing, they are here to answer any technical questions to the 
bills on the agenda today.
    Any more substantive questions may be submitted for the 
record. Once VA's cleared the written testimony, this will be 
made available.
    I would like to thank again, Mr. Murphy and Mr. Hipolit for 
being here today and I will begin with some questions.
    First, a question on H.R. 2382, which would legislate 
certain priority groups for claims processing, including the 
elderly and terminally ill veterans.
    In addition to these veterans, what type of veterans does 
the VA currently try to prioritize for claims processing?

                   STATEMENT OF THOMAS MURPHY

    Mr. Murphy. The current priorities we have are Priority 
Group Number 1, is Medal of Honor recipients, homeless 
veterans, extreme financial hardships, terminally ill, and a 
couple others that I can't recall off the top of my head.
    But, the point is, many of the priorities that are called 
out in this bill, those veterans are already in Priority Group 
1.
    Just let me put a little clarity around what exactly that 
means. We are under a major push with the two year initiatives, 
the one year initiative that is ongoing right now.
    These claims in this category have priority over even that 
work that comes in. So, these are the first cases that are 
worked before we even go into the backlog issues of one year 
and two year claims.
    Mr. Runyan. Is it uniformly applied across all the ROs?
    Mr. Murphy. I can't sit here and tell you that I guarantee 
that 100 percent of the time it is complied at all times. We 
are still in a manual/automated process and as we complete the 
fielding and moving all claims into that, then I will be able 
to answer that question with certainty.
    Mr. Runyan. Can you generally discuss how the contract 
examination process works at the ten regional offices where it 
is currently in place?
    Mr. Murphy. We are talking the contract exams----
    Mr. Runyan. Yes.
    Mr. Murphy. --conducted by our two--well, it is one 
contractor--two contractors, excuse me. Yes. As an exam is 
determined the need in order to complete under the regulations 
and the law we determine an exam is needed and we have at the 
regional office, we have the option of going down the route of 
one of our suppliers or to VHA, depending on which is most 
expeditious and there is also some ties back into the IDIS 
process with that as well.
    It is done direct from VBA's development, BSR, to that 
contractor through our electronic systems, the exam is ordered 
and then returned back directly to us.
    We measure those for timeliness, for quality, accuracy, et 
cetera.
    Mr. Runyan. And you find the use of contract examinations 
helpful?
    Mr. Murphy. Yes. Yes, it is very helpful to us.
    Mr. Runyan. We had a veteran recently contacted the 
Committee and noted that he served on the U.S.S. William Pratt 
during the Vietnam War. The gentleman noted that his ship as 
well as the U.S.S. Halsey had been submitted to the VA to be 
listed as the ships that operated in the territorial waters of 
the Republic of Vietnam and he wanted to know what the process 
is and how that request gets moved along to confirmation.
    So, could you walk us through how the VA goes determining 
whether a particular Navy ship from the Vietnam era served in 
Blue Water or Brown Water.
    Mr. Murphy. There is a process by which we determine, did 
that ship enter into the Brown Water, up the rivers, the main 
water streams or did it come in and actually dock or send 
barges in with sailors on board those.
    In that process we contact JESRIK. We give them a specific 
window measured in months in a timeframe in that and JESRIK 
will go in and do research on the deck logs and other 
information in their possession and come back to us and confirm 
yes or no, was that ship in that location at that time.
    Once we receive that information, if it is confirmed that a 
particular ship was there, we document it and maintain it on a 
list, on a Web site and make that available to all raters so 
that we don't have to go out and repeat that research the next 
time when another veteran from that ship comes in.
    So, we are capturing it. It is not a complete list by any 
means of all ships in the Navy during the duration of the war 
explaining when those ships were or were not on.
    And we are being as wide as we can in our proof. We are 
using, for example, this sailor that you are talking about, if 
we had pictures of those that actually went ashore on a barge 
and it shows them in Saigon Harbor, we use that to develop and 
ask the right questions and record that that ship was, in fact, 
or the sailors on that ship were, in fact, exposed to Agent 
Orange on land in Vietnam. And then we capture that and record 
that for use later.
    Mr. Runyan. Thank you. And I will now yield to the Ranking 
Member, Ms. Titus, for her questions.
    Ms. Titus. Thank you, Mr. Chairman. Mr. Murphy, you said 
recently in a news story that the VA was at a tipping point in 
regard to eliminating the backlog and I think the VA is 
certainly doing a good job and making progress. So I commend 
you all for that.
    You also said that you should have the backlog completely 
by the end of--or by 2015. Now, Mr. McCarthy's bill, H.R. 2138, 
wants it to be completed by Memorial Day 2015. That's seven 
months ahead of the end of the year. How do you feel about 
that? Is that possible to do that seven months ahead or at what 
point in 2015 did you mean when you said you could have it done 
by then?
    Mr. Murphy. I would have to stick with by 2015.
    Ms. Titus. So, that would be by January 2015?
    Mr. Murphy. That would be--let me rephrase that. I would 
have to stick with in 2015.
    Ms. Titus. So, in 2015 means by Memorial Day?
    Mr. Murphy. I am sorry?
    Ms. Titus. Could you do it by Memorial Day then?
    Mr. Murphy. We are putting every effort we have got. Our 
prime focus has got--everything we do is targeted at reducing 
the backlog. Every effort, every dollar we spend is 125 days, 
98 percent in 2015.
    Ms. Titus. I know that and I appreciate that. I am just 
concerned that in 2015 if you do it by Memorial Day that cuts 
off seven months of 2015 and I don't know if you can get it 
done by then.
    Mr. Murphy. I don't know if we can either and that is why I 
am saying that in 2015 we will fix the backlog.
    Ms. Titus. Okay. My other question is going back to Ms. 
Jones' statement about the work credit system. The VA can do 
interim payments, but they are reluctant to do that because the 
employees don't get any work credit for that.
    Can you work with us now or will you commit to working with 
us to revising that system so that will be an incentive for 
people to get claims done? Or is that a problem for the VA?
    Mr. Murphy. That is a very complex question to a very 
complex situation in that----
    Ms. Titus. Well, how about a simple answer to a complex 
question? Yes or no?
    Mr. Murphy. Yes, we would be happy to work with you on 
exactly how we could look at and restructure the point system 
for how we award points for work, with the intent being how do 
you incentivize employees to work better, perform better, be 
more efficient.
    And we are, obviously, putting efforts into that today even 
beyond what we are looking at here or what is in the bill and 
in the language in here.
    What we do need to keep in mind, that there is--we are in 
the middle--this tipping point we are talking about has got 
much to do with the fact that we are operating in two worlds, 
paper environment and electronic environment and that the 
scales are tipping very rapidly. That we will be very much in 
the electronic world and very few in the paper world and as 
that automation rolls out and develops further, we get much 
more ability and much more clarity that we can look at and 
drive accountability and performance with our management, with 
our leadership, with our individual employees and place those 
right kind of incentives that you are talking about here.
    Ms. Titus. So, it is a little too early to measure kind 
of--or come up with new sets of metrics, as everybody likes to 
talk about now, for performance with the new system? Is that 
kind of what you are telling me?
    Mr. Murphy. And the general scope with the bill as I read 
it here, the concept goes in the direction we are already 
planning for and taking things to do and I think you said it 
best when you said, it might be just a little bit too early for 
that.
    Ms. Titus. Okay. Thank you. Mr. Chairman.
    Mr. Runyan. Okay. On behalf of the Subcommittee I would 
like to thank you for your testimony and look forward to 
working with you as your official positions become available to 
us and you are now all excused.
    I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and include 
any extraneous material.
    Hearing no objections, so ordered. I thank the Members for 
their attendance today and this hearing is now adjourned.

    [Whereupon, at 12:47 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good morning. This legislative hearing on H.R. 1288, H.R. 1494, 
H.R. 1623, H.R. 1809, H.R. 2086, H.R. 2138, H.R. 2189, H.R. 2341, H.R. 
2382 and H.R. 2423 will now come to order.
    Today we have a large number of bills before us and there is a high 
level of interest in the policy areas that they address - particularly, 
the backlog of disability benefits claims. Therefore, in the interest 
of time, I am going to forgo a lengthy opening statement and just 
briefly touch upon one bill on today's agenda which I am proud to have 
introduced.
    H.R. 2423, the Disabled Veterans' Access to Medical Examinations 
Improvement Act, has three main objectives.
    First, the bill would extend the authority of the Secretary of 
Veterans Affairs to enter into contracts with private physicians to 
conduct medical disability evaluations.
    With the passage of this bill, this successful program allowing 
physicians outside of VA to conduct contract examinations would 
continue for an additional three years, through 2016. This would allow 
VA to more quickly evaluate veterans' disabilities and facilitate 
access to the care they need.
    Second, this bill would also extend license portability to contract 
examination providers, meaning that physicians with an active state 
license may provide C&P examinations in another state because they are 
working on behalf of the Federal government.
    Although VA and DoD already provide license portability for 
physicians working directly for them, this authority is not extended to 
contract examination providers. This provision is designed to 
facilitate the C&P examination process by allowing contract physicians 
the flexibility to travel and assist in areas that are experiencing 
lengthy delays in scheduling examinations.
    Finally, this piece of legislation would also expand the number of 
regional offices (ROs) allowed to utilize contract examinations from 10 
to 15. In addition, it would require the Secretary to determine which 
ROs would benefit most from the use of contract examinations by 
performing data analysis of the backlog and disability examination wait 
times.
    C&P examinations are a key component of the disability claims 
process; therefore, by expanding the authority and scope of the 
contract examination process, it is my hope that veterans can more 
quickly receive the necessary medical evidence for their claim. This 
will cut down on overall development and processing time, resulting in 
the faster issuance of a final decision.
    Again, in the interest of time, I would like to reiterate my 
request that today's witnesses abide by the decorum and rules of this 
hearing and to summarize your statement to five minutes or less during 
oral testimony. We have a large number of bills on the agenda today, 
and I want to make sure everyone is heard in a timely manner. I would 
also remind all present that, without any objection, your written 
testimony will be made part of the hearing record.
    I appreciate everyone's attendance at this hearing and now call on 
the Ranking Member for her opening statement.

                                 <F-dash>
                 Prepared Statement of Hon. Dina Titus
    Thank you, Mr. Chairman and thank you for your continued leadership 
and efforts to address the issues facing our Nation's veterans.
    Today, we are examining 10 bills. I support several of these 
provisions brought forth by my colleagues, and am also proud to have 
introduced H.R. 2086, the Pay As You Rate Act, which is supported by a 
number of major VSO's. Thank you, Mr. Chairman, for including it on 
today's agenda. I hope we can work together to quickly move this 
legislation to the House floor.
    Our first bill, H.R. 1288, World War II Merchant Mariner Service 
Act, sponsored by Mr. Butterfield, pertains to World War II Merchant 
Mariners, a group who served a critical role keeping the war effort 
moving forward as an auxiliary to the Navy. This legislation would 
expand the acceptable forms of documentation used to determine 
eligibility for benefits as a Merchant Marine, and would greatly assist 
in allowing these men and women to prove their service.
    I also wanted to mention some of the of our bills before us today 
that are part of a slate of 10 pieces of legislation introduced by 
Members of the Democratic Caucus to assist VA in tackling the claims 
backlog.
    On today's agenda is H.R. 1623, the VA Claims Efficiency through 
Information Act of 2013, brought forward by Ms. Negrete McLeod 
(McCloud) of the DAMA Subcommittee. H.R. 1623 requires VA to track the 
time spent evaluating each type of medical condition in a veteran's 
disability claim and the performance of each regional office in 
handling disability claims. Understanding which medical conditions 
consume the most time to process will help Congress understand the 
agency's backlog and to shape policies that can expedite the 
progression of the claim. H.R. 1623 would ensure that VBA builds in 
detailed measures which will ultimately lead to gains in efficiency by 
better understanding the backlog and ways to address it.
    Next, H.R. 1809, the Faster Filing Act, was proposed by Rep. 
O'Rourke also of the DAMA Subcommittee. This bill would help encourage 
and educate veterans about the various methods that may increase the 
timeliness of their claims, such as utilizing the Fully Developed 
Claims program. The Fully Developed Claims program will not only help 
to lower the backlog significantly, but Veterans will receive their 
claims in the appropriate time period with an extra year of benefits as 
an incentive. This legislation will encourage veterans to utilize the 
faster approach.
    And finally, my bill, H.R. 2086, the Pay As You Rate Act, would 
require VA to pay for medical conditions as they are adjudicated in an 
electronic system. Currently, veterans typically receive payment when 
all medical conditions within a claim are fully adjudicated. This 
legislation will require VA to pay veterans as individual medical 
conditions are adjudicated, which will pay veterans at a faster rate. 
Veterans returning from Iraq and Afghanistan average 8.5 contentions in 
their claims. While some parts of these claims are complex and time 
consuming, some components are simpler. The VA should compensate 
veterans for the simpler components as early as possible while 
continuing to work on the more complex aspects of a claim.
    I believe this is a common sense approach, and I hope we can move 
this bill to the Floor as quickly as possible.
    Collectively, the legislation before us today should assist VA in 
their continued effort to transform their process from mountains of 
paper one to an efficient, and effective electronic system. In just the 
past few months, the VA has made great strides in serving our Nations 
heroes. They have rolled out a transformation plan to all 56 RO's and 
nearly eliminated all claims over two years old. More needs to be done, 
and it needs to be done quickly to ensure that veterans receive the 
benefits they have earned in a timely fashion.
    I thank all of the Members for their thoughtful legislation. And, I 
thank all of our esteemed witnesses for joining us today and look 
forward to hearing their testimony.
    Thank you, and I yield back.

                                 <F-dash>
               Prepared Statement of Chairman Jeff Miller
    Thank you, Mr. Chairman.
    With your permission, I would like to make a few remarks on H.R. 
2189, a bill I introduced that would establish a commiscion or task 
force to evaluate the disability claims' backlog.
    VA has recently brainstormed a number of initiatives, in an effort 
to get the backlog of disability benefit claims under control. We all 
hope that these initiatives were well meant, well planned and well 
executed. And, time will tell.
    However, starting new initiative after new initiative after new 
initiative is just no way to do business.
    And this is why H.R. 2189 is vital.
    An outside, independent analysis is necessary to clearly identify, 
first, why the backlog exists, and second, how to prevent this 
situation from ever recurring. Make no mistake, this commission or task 
force is an opportunity.
    The team assembled would work towards VA's goals and would give 
fresh perspective on the best path forward --- towards an intelligent, 
efficient claims process. Specifically, H.R. 2189 would require an 
examination of backlog factors, and an analysis of laws and regulations 
applicable to claims and appeals. Recommendations would be made.
    In performing this review, the veteran-friendly, non-adversarial, 
nature of the claims process would be underscored. Team members would 
be appointed by Congress, the President, and would include VA 
representation. This commission or task force would pull perspectives 
from the veterans service organization community as well as private-
sector leaders in fields such as claims processing, logistics, and 
product tracking. Finally, the bill would require interim reporting on 
the group's progress, as well as a final report within 180 days.
    I am aware that some of the stakeholders here today express 
skepticism, and suggest this bill is unnecessary. I would respond to 
this skepticism by reminding all involved that the status quo is 
unacceptable. Many of those who have shouted the loudest that ``change 
is necessary'' are the very first to back down when an idea for real 
change to the system is proposed.
    Yes, VA has made some progress with the backlog numbers. But 
overall processing times still remain well over VA's 2015 goal. Even 
with the improvement VA has shown, 65% of claims are still backlogged.
    Congress, VA, and veterans can all agree that now is not the time 
to take the foot off the gas.
    I have heard concerns that VA needs additional time to allow its 
transformation plan to work, and that a commission would slow this 
already glacial process down. I would like to clarify for all that are 
here today that this is simply not the case.
    Rather, what we are asking this team to do is work with VA to 
objectively evaluate the situation surrounding the backlog --- and 
arrive at solutions that VA and others, who are so engulfed in the 
current day to day system themselves, may not be able to see. This is 
not very different from VA's recent decision to work claims that were 
pending in excess of two years. That initiative was not part of VA's 
transformation plan. Yet, it was proposed and advanced on short order 
because VA decided a course-correction was needed.
    Couldn't similar corrections be proposed on short order by a 
knowledgeable group of independent thinkers? I believe we all know that 
the answer to that is ``yes.''
    In addition, many academics and well-respected individuals in the 
veterans' benefits realm have called for an independent commission to 
evaluate this process. I absolutely agree with them. A ``fail first'' 
approach is not acceptable, when there is a chance to do more 
immediately.
    Mr. Chairman, I thank you and the Members of the Subcommittee for 
your time. I would like to encourage all of you to support H.R. 2189, a 
bill to establish a commission or task force to evaluate the backlog of 
disability claims at VA, and I yield back.

                                 <F-dash>
              Prepared Statement of Hon. G. K. Butterfield
    Chairman Runyan, Ranking Member Titus, and members of the 
subcommittee, thank you very much for allowing me the opportunity to 
testify in support of my bill H. R. 1288, the World War II Merchant 
Mariner Service Act. Seeing this bill signed into law is a personal 
priority and I am hopeful that this hearing signals that I am one step 
closer to achieving that goal on behalf of coastwise World War II 
Merchant Mariners.
    As this Subcommittee knows all too well, ensuring that individuals 
who sacrificed so much in service to our country receive the 
recognition they deserve is one of the most important jobs we have as 
Members of Congress. For the past three Congresses, I have led a strong 
bipartisan effort to recognize individuals that served our country 
during World War II in the Merchant Marine. In this Congress, I am 
again joined by a strong bipartisan coalition of, at present, 84 
cosponsors, in support of H. R. 1288. Five of the bill's cosponsors are 
members of this Committee including full committee Ranking Member 
Michaud, and I thank each of them for their support. Passing this bill 
is the right thing to do and now is the right time to do it.
    My bill is very simple. It would expand the types of documentation 
accepted by the federal government when a very small group of mariners 
that operated tugboats and barges domestically during World War II 
apply for veterans' status. Once recognized as a veteran, they would be 
provided benefits limited only to burial and a U.S. flag. Let me repeat 
that - qualifying Merchant Mariners, who can prove service through 
expanded acceptable documentation, would receive only burial benefits 
and the honor of being recognized by their country for their sacrifice 
and service. My bill does not provide for health coverage, disability 
payments, or payouts of any kind to Merchant Mariners who served during 
World War II and does not impact direct spending.
    Currently, the required documents to satisfactorily prove service 
no longer exist or can be extremely hard to find. I have included 
documents in my submitted testimony that demonstrate that many of these 
necessary documents no longer exist or never existed, largely because 
of decisions by the government over several decades, and I ask they be 
included in the record.
    As a veteran of the United States Army, it is important to note 
that this bill takes nothing away from the brave men and women who have 
served and continue to serve our country in our traditional armed 
forces. It does not diminish the importance of their sacrifices and 
does not reduce the esteem in which we all hold veterans of our 
traditional armed forces. These mariners have gone unrecognized for 
more than 70 years, and they deserve to be recognized for their service 
because they too helped to protect the freedoms we all cherish as 
Americans.
    My bipartisan bill has been scored by the Congressional Budget 
Office to have an ``insignificant and de minimis'' effect on direct 
spending over a 10 year period. Let me repeat that - the non-partisan 
CBO has scored this bill as not impacting direct spending.
    Estimates show that fewer than 2,000 of these mariners who served 
the United States during World War II are still living. In fact, it's 
very possible that there are only hundreds of left today. Colleagues, 
we are quickly running out of time to recognize these few remaining 
Americans that stood up for freedom and democracy when their country 
needed their help. Without weapons or formal training, these brave 
folks risked their lives, and tragically too many gave their lives in 
defense of our great nation. For those that are still living, we must 
not let their efforts and contributions go unrecognized while we still 
have a chance. The passing of Senator Lautenberg, the last remaining 
World War II veteran in the Senate, is a strong reminder to all of us 
in Congress that if we are to honor and recognize these Merchant 
Mariners, the time to do so is now.
    Mr. Chairman, Ranking Member Titus, colleagues, I thank you for 
allowing me the time to speak on this important issue today. I strongly 
encourage you to support H. R. 1288 and urge you to schedule a markup 
soon so that these few remaining unsung American heroes have a chance 
to gain the recognition they rightly deserve.
    I am happy to answer any questions that members of the subcommittee 
may have.
    Thank you.
Executive Summary
    The World War II Merchant Mariner Service Act would accomplish the 
following:

    <bullet>  Expand the official documentation accepted by the 
Secretary of Homeland Security to grant veterans status with limited 
benefits to men and women who solely operated tug boats and barges in 
the U.S. Merchant Marine along the U. S. Coast during WWII (December 7, 
1941-December 31, 1946).
    <bullet>  Provide veterans burial benefits (headstone, flag, 
plaque, etc)
    <bullet>  Award any commendations, ribbons, or awards earned 
through service

    Exclusive Benefits:

    <bullet>  Burial benefits afforded under chapters 23 and 24 of 
title 38, United States Code
    <bullet>  Awarding of any medals, ribbons, or commendations through 
service

    Additional Documentation Accepted:

    <bullet>  Social Security Administration records
    <bullet>  Validated testimony by the applicant or closest living 
relative
    <bullet>  Other official records that provide sufficient proof of 
service

    Status update on HR 1288:

    <bullet>  84 bipartisan cosponsors, including Ranking Member 
Michaud

    It is believed that, at most, there are 2350 of these World War II 
Coastwise Merchant Seamen alive today. It is also believed that only 
170 of these Seamen would access the benefits provided by HR 1288. Due 
to the small population of surviving Seamen and limited benefits 
afforded in this legislation, CBO has determined the bill would have 
``An insignificant effect on direct spending over the 2014 to 2023 
period.''
    Congressman Butterfield has introduced this legislation for the 
past three Congresses, and passing this legislation is a personal 
priority for him.

                                 <F-dash>
                Prepared Statement of Hon. Chris Gibson
    I would like to begin by thanking the Chairman, the Ranking member, 
and members of the Committee for holding this hearing. I sincerely 
appreciate the opportunity to come before the Committee to discuss H.R. 
1494, the Blue Water Navy Ship Accountability Act, an important bill 
designed to help our Blue Water Navy Vietnam Veterans.
    During the Vietnam War, the U.S. Army sprayed 20 million gallons of 
the herbicide ``Agent Orange'' to remove jungle foliage from the 
Vietnam terrain. Agent Orange contains dioxin, a toxic chemical residue 
found in locations where Agent Orange was used or stored. The U.S. 
Government has since linked dioxin to harmful or serious medical 
conditions affecting those who served in or around Vietnam, including 
non-Hodgkins Lymphoma, prostate and other cancers, Type II Diabetes, 
and Parkinson's disease.
    Recognizing the debt owed to veterans who were exposed to Agent 
Orange, Congress passed, and President George H.W. Bush signed into 
law, the Agent Orange Act of 1991. The 1991 law empowered the Secretary 
of Veterans Affairs to declare certain illnesses to be presumed to have 
been caused by exposure to Agent Orange and enabled Vietnam veterans to 
receive disability compensation for related conditions. However, in 
2002, the VA limited the scope of these ``presumptive'' illnesses 
covered within the Act to only those veterans who could provide proof 
that they had ``boots on ground'' in Vietnam. Boots on the ground 
encompassed land forces and the riverine, or Brown Water Navy. As a 
result, veterans who served in the waters off the coast of Vietnam, 
commonly called ``blue water veterans,'' were forced to file individual 
claims with the VA to restore their benefits. The VA has denied 32,880 
such claims through 2009.
    Under current law, Blue Water Navy Veterans who did not set foot in 
Vietnam or serve aboard ships that operated on the inland waterways of 
Vietnam between January 9, 1962 and May 7, 1975 have the burden of 
proof to demonstrate exposure to Agent Orange and the connection to 
their illnesses. These claims are decided on a case-by-case basis.
    The Bureau of Veterans Affairs maintains a list of U.S. Navy and 
Coast Guard ships that operated within the vicinity of Vietnam. Some 
offshore vessels docked to the shore of Vietnam, operated in Vietnam's 
close coastal waters and sent smaller vessels ashore, or conducted 
operations on the inland waterways of Vietnam. Current VA policy for 
when a Veteran files an Agent Orange exposure-related claim requires 
the VA Regional Office to forward a request for research to the 
Department of Defense's Army and Joint Services Records Research Center 
(JSRRC). Evidence confirmed through military records must show that the 
Veteran was aboard one of these ships that operated close to shore in 
order to receive benefits. However, the list is imperfect and not 
comprehensive.
    Our Vietnam Veterans should not be made to wait any longer than 
necessary to receive their benefits. My bill would direct the JSRRC to 
do a comprehensive search to determine which ships are eligible for 
coverage under current law, reducing the wait time when new claims are 
filed. This would help Veterans who are currently sick or, in some 
cases, have died and claims are being made by their surviving families. 
Passage of this bill will alleviate some of the current VA Claims 
backlog our veterans are facing by proactively determining what we know 
today, rather than waiting until tomorrow when claims are made.
    In closing, I would also like to point out that the Congressional 
Budget Office has indicated H.R. 1494 will have no significant cost and 
the bill enjoys the support of major veterans organizations such as the 
American Legion, the Veterans of Foreign Wars, the Military Officers 
Association of America, the Military Coalition, the Vietnam Veterans 
Association, the Association of the U.S. Navy, and the Blue Water Navy 
Vietnam Veterans Association. It researches available documents to 
determine who is eligible under current law to receive presumptive 
coverage for exposure to Agent Orange. Thank you, Mr. Chairman, I look 
forward to any questions your subcommittee may have.
Executive Summary
    Under current law, Blue Water Navy Veterans who did not set foot in 
Vietnam or serve aboard ships that operated on the inland waterways of 
Vietnam between January 9, 1962 and May 7, 1975 have the burden of 
proof to demonstrate exposure to Agent Orange and the connection to 
their illnesses. These claims are decided on a case-by-case basis.
    The Bureau of Veterans Affairs maintains a list of U.S. Navy and 
Coast Guard ships that operated within the vicinity of Vietnam. Some 
offshore vessels docked to the shore of Vietnam, operated in Vietnam's 
close coastal waters and sent smaller vessels ashore.
    My bill would direct the Joint Services Records Research Center to 
do a comprehensive search to determine which ships are eligible for 
coverage under current law, reducing the wait time when new claims are 
filed. This would help Veterans who are currently sick or, in some 
cases, have died and claims are being made by their surviving families.
    The bill enjoys the support of major veterans organizations such as 
the American Legion, the Veterans of Foreign Wars, the Military 
Officers Association of America, the Military Coalition, the Vietnam 
Veterans Association, the Association of the U.S. Navy, and the Blue 
Water Navy Vietnam Veterans Association.

                                 <F-dash>
               Prepared Statement of Hon. Kevin McCarthy
    Thank you Mr. Chairman for holding this hearing today and providing 
me the opportunity to testify in support of H.R. 2138, the Ending VA 
Claims Disability Backlog and Accountability Act.
    Every day, our brave men and women in our Armed Forces risk their 
lives to preserve our freedom and the American way of life. When our 
service members return home, they often seek out the care and benefits 
the Department of Veterans' Affairs (VA) is mandated to provide, only 
to be met by bureaucratic roadblocks. The Department of Veterans 
Affairs has continually stumbled in its efforts to serve our veterans, 
largely due to the increasing number of backlogged claims. We must 
honor those who have served, and that is why Congress has continued to 
increase the VA - an uncommon occurrence in today's fiscal climate. 
Yet, despite this increased funding, the VA has and is failing to meet 
the needs of our veterans, and is, in it of itself, a major obstacle to 
ensuring our veterans have their disability claims resolved in a timely 
manner.
    I continue to hear from frustrated veterans in my community about 
how they must wait for long periods of time, even years, for a decision 
on a claim. Recently, these complaints have continued to get worse, 
occurring more frequently. Even more frustrating, my own inquiries - 
Congressional inquiries - to the VA on behalf of our veterans were 
mostly ignored. So I appreciate the help of this committee for working 
with me to request an audit from the Government Accountability Office 
(GAO) to seek answers.
    The GAO audit confirmed our veterans' worst complaints, and what 
disturbed me in particular was the number of backlogged claims at the 
Los Angeles Regional Office (LA RO) - which serves many of the veterans 
in my district. At the time of the audit, GAO found that 80% of over 
25,000 claims at the LA RO were older than 125 days, one of the worst 
performing regional offices in the country. GAO also determined the 
average wait time for claims is 318 days from start to finish- nearly 
three times longer than the VA's targeted completion time of 125 days.
    After reviewing the audit, House Veterans Affairs Committee 
Chairman Jeff Miller and I immediately called upon Veterans Affairs 
Secretary Eric Shinseki to take swift action to implement the GAO's 
recommendations to fix the delays in VA services and held a hearing 
where I questioned VA Undersecretary Allison Hickey on the damaging 
statistics in the GAO audits and blatant leadership problems within the 
VA. But instead of acknowledging many of problems identified by GAO - 
Undersecretary Hickey denied many of the audits' findings.
    I have repeatedly said that the House will keep the VA accountable 
to its goal of eliminating the backlog, by processing claims within 125 
days with a 98% accuracy rating by 2015. So in addition to the 
Chairman's bill, H.R. 2189 which I cosponsored, I introduced H.R. 2138 
with the Chairman's support to end the backlog. H.R. 2138 addresses the 
GAO-identified factors that contribute to the lengthy processing times 
of disability claims, improves congressional oversight of the VA's 
efforts to reduce the backlog, and increases accountability by 
requiring the VA to end the backlog by Memorial Day 2015.
    The bottom line is many veterans literally wait years before they 
receive needed benefits and sometimes it can be too late. The current 
system is failing our veterans, the very men and women who have served 
our country. They deserve better than this and we want to help the VA 
to better serve our veterans and end the backlog. I am confident both 
H.R. 2138 and H.R. 2189 will help in this effort.
    Mr. Chairman, thank you for allowing me to testify today. I yield 
back my time.

                                 <F-dash>
                   Prepared Statement of Verna Jones
    Chairman Runyan, Ranking Member Titus and distinguished Members of 
the Subcommittee, on behalf of Commander Koutz and the 2.4 million 
members of The American Legion, I thank you and your colleagues for the 
work you do in support of our service members and veterans as well as 
their families. The hard work of this Subcommittee in creating 
significant legislation has left a positive impact on our military and 
veterans' community.
          H.R. 1288: World War II Merchant Mariner Service Act
    To direct the Secretary of Homeland Security to accept additional 
documentation when considering the application for veterans status of 
an individual who performed service as a coastwise merchant seaman 
during World War II, and for other purposes.
    ``[Mariners] have written one of its most brilliant chapters. They 
have delivered the goods when and where needed in every theater of 
operations and across every ocean in the biggest, the most difficult 
and dangerous job ever undertaken. As time goes on, there will be 
greater public understanding of our merchant's fleet record during 
[World War II].''--President Franklin D. Roosevelt
    The question of veteran standing for those that served in the 
Merchant Marines during World War II has routinely been debated. Is the 
merchant mariner a veteran? According to a January 9, 1988 decision of 
the Secretary of the Air Force veteran status is warranted for a 
merchant mariner that served between December 7, 1941 and December 31, 
1946. The American Legion similarly recognizes these standards. We 
encourage these men to join their brothers and sisters that have served 
their nation honorably during periods of conflict in The American 
Legion. Additionally, we support including the Merchant Marine flag 
``in all National Displays as an official United States Auxiliary 
Service Flag and to fly beside other Service flags of the Armed Forces 
as appropriate and in accordance with accepted protocol.'' \1\
---------------------------------------------------------------------------
    \1\ Resolution No. 3, October 2003.
---------------------------------------------------------------------------
    H.R. 1288 directly addresses correcting the record for any members 
who may have served in the Merchant Marines and have lacked the proper 
documentation to prove service. World War II Merchant Marine and 
maritime historian Charles Dana Gibson provided testimony to the United 
States Senate Committee on Veterans' Affairs on May 7, 2008, regarding 
how some individuals entered the Merchant Marines; the manner that men 
entered the Merchant Marines has resulted in difficulties for World War 
II merchant mariners achieving veteran status.
    Unlike the Departments of Army and Navy, where enlistment 
documentation was housed within the War Department, many men in the 
Merchant Marines were contracted by a private sector employer ``through 
means of `letters of intent to employ' written by shipping companies 
and/or unions and addressed to the United States Coast Guard which then 
issued the seaman's certification for one of three entry rating . . . 
.Such men did not go through the apprentice training programs that were 
operated by the U.S. Maritime Service and for which we do not have the 
approximate numbers'', according to Mr. Gibson \2\.
---------------------------------------------------------------------------
    \2\ Chales Dana Gibson, Senate Committee on Veterans' Affairs, May 
2008.
---------------------------------------------------------------------------
    The nature that many of these men entered Merchant Marine service 
suggests that records of service may not have been maintained in a 
similar manner as veterans who served in other branches of the armed 
forces. As a result, some of these veterans charged with the protection 
of cargo on vessels, to include soldiers and sailors, may have long 
been denied benefits entitled to veterans. Through the passage of H.R. 
1288, veterans of the Merchant Marines may be able to finally receive 
benefits earned through their sacrifice to this nation's war efforts 
during World War II.
The American Legion supports the passage of H.R. 1288.
           H.R. 1494: Blue Water Navy Ship Accountability Act
    To direct the Secretary of Defense to review the operation of 
certain ships during the Vietnam Era, and for other purposes.
    The exemption of Blue Water Navy Vietnam veterans from presumptive 
Agent Orange exposure has caused heartache and frustration for many 
veterans. Current regulations require Blue Water Navy veterans to prove 
going ashore in Vietnam; their ship is one of 244 ships currently 
registered on Department of Veterans Affairs' (VA) public health 
website \3\, or they have to file a claim, ask VA to research to 
determine if a ship qualifies for presumptive exposure in their quest 
for VA disability benefits.
---------------------------------------------------------------------------
    \3\ http://www.publichealth.va.gov/exposures/agentorange/shiplist/
list.asp.
---------------------------------------------------------------------------
    According to H.R. 1494, Congress calls upon the Department of 
Defense (DOD) to ``review the logs of each ship under the authority of 
the Secretary of the Navy that is known to have operated in the waters 
near Vietnam during the Vietnam Era'' to determine whether each ship 
operated in the territorial waters of Vietnam, the dates of the ship's 
service in Vietnam, and the proximity of the ship to the shore at its 
closest point.
    Through the passage of this bill, ownership of the whereabouts of 
naval vessels during the conflict is rightfully placed upon DOD as they 
were the department ordering the deployment of ships. In August 2012, 
The American Legion directly addressed this issue, calling upon ``DOD 
to provide a full disclosure of all wartime and non-wartime locations 
to (VA) where hazardous environmental exposures exist and that armed 
forces members were exposed through testing, transportation, storage, 
disposal and environmental contamination. \4\'' Additionally, we stated 
that ``(DOD) prepare and provide an updated list of all areas outside 
of the United States, including but not limited to Panama and Okinawa, 
where it is known that herbicides, specifically Agent Orange, were used 
in connection with the location and deployment of troops, to include 
but not limited to the herbicide or herbicides used; the date of each 
use of each herbicide; and the units located in each area/place that 
may have been exposed.''
---------------------------------------------------------------------------
    \4\ Resolution No. 95, August 2012.
---------------------------------------------------------------------------
    The ownership of location of naval vessels during Vietnam should 
not completely fall upon VA's shoulders. The ships were deployed by the 
direction of DOD, as were the sailors. DOD would be the department 
responsible for the maintenance of these records and should be directed 
to supply the location of all naval vessels during the conflict.
    It is long past time that a comprehensive accounting of these 
vessels be completed, to save veterans and VA many needless hours of 
time addressing claims for benefits.
The American Legion supports the passage of H.R. 1494.
    H.R. 1623: VA Claims Efficiency Through Information Act of 2013
                               H.R. 1809
    H.R. 1623: To amend title 38, United States Code, to direct the 
Secretary of Veterans Affairs to make publicly available certain 
information about pending and completed claims for compensation under 
the laws administered by the Secretary, and for other purposes.
    H.R. 1809: To amend title 38, United States Code, to direct the 
Secretary of Veterans Affairs to provide notice of average times for 
processing claims and percentage of claims approved, and for other 
purposes.
    With over 2,600 accredited representatives dedicated in assisting 
veterans and their dependents with claims for VA benefits, The American 
Legion is keenly aware of the necessity for transparency within the 
Veterans Benefits Administration (VBA) and to resolve the backlog of VA 
claims. Due to this vast network of representatives, we are able to 
monitor areas of concerns held by the accredited representatives that 
may negatively affect veterans' claims.
    Currently, VBA releases a weekly Monday Morning Workload Report 
(MMWR). The MMWR contains numerous statistics to include but not 
limited to, average days pending for a claim and adjudication accuracy. 
These statistics reflect production and accuracy for each VA Regional 
Office (VARO) and national averages. Additionally, it provides an 
accuracy average for the previous three months. \5\
---------------------------------------------------------------------------
    \5\ www.vba.va.gov/REPORTS/mmwr/MMWL--Summary.doc.
---------------------------------------------------------------------------
    H.R. 1623 and H.R. 1809 direct the VBA to provide statistics 
indicating the number of claims granted and denied by each VARO. 
Additionally, H.R. 1623 directs VBA to provide statistics regarding the 
grant or denial of benefits by medical condition. The American Legion 
supports full transparency of VBA. As an organization dedicated to 
support the needs of the veteran community, to include veterans' 
disability benefits, we assert a full understanding of VBA's policies 
and the implementation of policies is required. In August 2012, we 
called upon Congress to require VA to provide in a readily available 
venue a report of ``the number of claims for compensation and 
disability that were submitted, that were granted/awarded, that were 
denied and that remain in a pending status \6\''.
---------------------------------------------------------------------------
    \6\ Resolution No. 99, August 2012.
---------------------------------------------------------------------------
    H.R. 1809 discusses veterans pursuing VA benefits through filing a 
fully developed claim (FDC). As members of the Committee may know, The 
American Legion has worked closely with White House and VA staff as the 
FDC process was implemented nationwide. Our involvement with the 
implementation of the FDC process has resulted in the visiting of 
numerous VAROs with VA and this Committee's staff. A report of our 
findings will be released later this year.
    What The American Legion has seen is that in many cases, the 
improvement in processing time by pursing a claim that qualifies under 
the FDC process is striking. Helping veterans to better understand what 
the best option available to them to pursue their claim will help not 
only countless veterans applying for disability benefits, but also VA 
as claims are more efficiently routed to the process stream best suited 
for a veteran's claim. Increasing transparency and access to the data 
necessary to make informed decisions about their claims is vital to 
continuing the improvement process in the overall claims system.

The American Legion supports the passage of H.R. 1623.
The American Legion supports the passage of H.R. 1809.
                   H.R. 2086: The Pay As You Rate Act
    To direct the Secretary to make interim payments of disability 
compensation benefits for certain claims for such compensation prior to 
the adjudication of such claims, and for other purposes.
    This legislation would provide a much needed way to start access to 
health care and benefits for veterans in the disability process. Often, 
for veterans with complex medical conditions, or multiple medical 
conditions, the process is lengthy because VA will typically wait until 
all issues have been fully researched and resolved before issuing a 
decision that covers all conditions for which benefits are sought. 
While VA has the authority to grant individual issues and defer 
decisions on other issues currently pending, this is seldom done. 
According to findings at American Legion Regional Office Action Review 
(ROAR) visits to VA Regional Offices (VAROs) this is often because 
employees do not get credit for such split and deferred decisions, so 
it goes against their incentive to devote the time to writing a 
decision they will not receive work credit for.
    Starting the flow of benefits to a disabled veteran is important 
for many reasons. The start of disability payments, even if they are 
only a small amount of money for a simple condition rated at a low 
percentage, can often make the difference between making ends meet and 
falling into dire financial straits. Veterans are compensated for their 
disabilities in some part because these disorders negatively affect 
their ability to work and earn a living. Furthermore, receiving a 
service-connected disability rating gives the veteran access to health 
care for that disability. The sooner they can receive treatment, the 
better they can mitigate the negative effects of the disability.
    This bill would help direct such decisions, rating the issues that 
can be rated and starting at least a trickle flow of benefits to the 
veteran, and that is vitally important to many disabled veterans as 
they wait through the many months it takes VA to render complete 
decisions on every issue.
The American Legion supports the passage of H.R. 2086.
 H.R. 2138: Ending VA Claims Disability Backlog and Accountability Act
    H.R. 2138: To direct the Secretary of Veterans Affairs to resolve 
the backlog of disability claims of the Department of Veterans Affairs, 
and for other purposes.
    Repeatedly, VA Secretary Eric Shinseki has touted VA's bold 
initiative to eliminate the backlog with 98 percent accuracy by 2015. 
While we certainly applaud the Secretary's vision, we remain concerned 
that this initiative will not become a reality. Officials within VBA 
suggest that a ``tipping point'' has been reached regarding the backlog 
of VA claims, as they reported that claims awaiting decisions for at 
least two years have finally been adjudicated; however, this success 
raises at least two questions:

    u  VBA was able to adjudicate claims in 60 days that they could not 
adjudicate in at least two years. Why were these practices not employed 
earlier?
    u  As these claims were rapidly adjudicated, does VBA feel 
confident in the accuracy?

    The latter question unfortunately will likely not be answered for 
years as these decisions may be appealed to a VA Decision Review 
Officer, Board of Veterans' Appeals (BVA), and Court of Appeals for 
Veterans Claims. Historically, statistics generated through BVA 
decisions suggest that the quality of adjudication at VAROs is not as 
accurate as the MMWR would indicate.
    H.R. 2138 directs the Secretary to provide tangible metrics to 
ensure that VBA meets the goal of eliminating the backlog with 98 
percent accuracy by Memorial Day, 2015. Additionally, it calls for 
necessary records from federal agencies to be expeditiously transferred 
to VA for the purpose of VA claims' adjudication. The enactment of this 
provision should reduce the timeline that VA experiences when waiting 
for records from agencies such as the Social Security Administration as 
suggested by Under Secretary for Benefits Allison Hickey during her 
March 2013 testimony before the United States Senate Committee on 
Veterans' Affairs \7\.
---------------------------------------------------------------------------
    \7\ http://www.heller.senate.gov/public/index.cfm/2013/3/heller-
questions-veterans-benefits-administration-about-va-claim-backlog.
---------------------------------------------------------------------------
    It is also noted that this bill calls for a comprehensive training 
program for claims' adjudicators. Recognizing that VA claims can be 
significantly complicated due to the nature of the condition(s), the 
responsible act would include an exhaustive training to help ensure 
that VBA can achieve Secretary Shinseki's objective.
    The American Legion has long conducted VARO visitations to review 
claims' adjudication quality. We have long held that their training, in 
its current format, is not sufficient. We applaud the bill's attempt to 
improve training within VBA. In August 2012, The American Legion 
petitioned ``Congress to pass legislation that requires VA be held 
accountable for achieving the VA Secretary's stated goal to achieve an 
operational state for VA in which no claim is pending over 125 days and 
all claims have an accuracy rate of 98 percent or higher. \8\'' We 
believe the enactment of this bill will aid in the Secretary achieving 
his objective; more importantly, it will assist in reducing the backlog 
of claims and allow veterans and their dependents to receive the 
benefits they deserve.
---------------------------------------------------------------------------
    \8\ Resolution No. 99, August 2012.
---------------------------------------------------------------------------
The American Legion supports the passage of H.R. 2138.
                               H.R. 2189:
    To establish a commission or task force to evaluate the backlog of 
disability claims of the Department of Veterans Affairs.
    The commission or task force established by this legislation would 
address the backlog of disability claims by considering a broad gamut 
of considerations, regarding the interests of veterans, the public, the 
Constitution, and other interested parties. The commission will issue 
regular reports over the course of half a year addressing their 
findings on the issue.
The American Legion has no position on this legislation.
             H.R. 2341: The Veterans Pension Protection Act
    To amend title 38, United States Code, to require the Secretary of 
Veterans Affairs to consider the resources of individuals applying for 
pension that were recently disposed of by the individuals for less than 
fair market value when determining the eligibility of such individuals 
for such pension, and for other purposes.
    The American Legion and our network of over 2,600 service officers 
regularly work with veterans and their families to ensure they receive 
the benefits they deserve. Over the last several years, it has become 
more apparent that predatory actors are moving in and taking advantage 
of elderly veterans in a vulnerable position, by engaging in 
questionable business practices which can fleece a veteran of their 
money while offering false promises of pension programs to pay for 
elder care facilities.
    While The American Legion is tremendously appreciative of critical 
attention to this issue, and this legislation's aim is admirable - 
seeking to protect veterans from these predatory practices by 
increasing the look back period when examining veterans' assets--The 
American Legion has reservations as to whether or not this is the most 
appropriate measure to provide relief to veterans and their families. 
Research conducted through The American Legion's network of service 
providers shows, that this new look back period would affect surviving 
spouses of veterans who need benefits, as well as questions how VA 
would be able to address the increased workload of the look back period 
when pension centers struggle to address their existing workload.
    However, as this is a matter of concern, The American Legion 
continues to work with the expertise of our service officers, 
membership and staff to determine a course of action which would 
provide remedy in this situation. When such a remedy is determined, 
then by our own resolution process our membership, will The American 
Legion be able to ratify a plan for taking action. Due to the 
complexity of the situation, there is no consensus and therefore we can 
neither support nor oppose this course of action.
The American Legion has no position on this legislation.
 H.R. 2423: Disabled Veterans' Access to Medical Exams Improvement Act
    To improve the authority of the Secretary of Veterans Affairs to 
enter into contracts with private physicians to conduct medical 
disability examinations.
    In the traditional claims process two of the three critical 
components needed for a veteran to be granted service connection for a 
disability require an examining physician. A veteran must have a 
current diagnosis with information about the extent and severity of the 
disorder provided by a physician. A veteran also must have a ``nexus 
opinion'' or a written analysis by a doctor stating that it is ``as 
likely as not'' that the veteran's current disability is a result of an 
event, injury or disorder sustained in service. There are other methods 
involving aggravation of a condition, development of a condition 
secondary to an already service-connected condition, malpractice and 
other concerns; but physician's opinions are vital to proper decision 
making in the claims process.
    In many regions, contract examinations through outside parties to 
perform these Compensation and Pension (C&P) examinations are a vital 
component in ensuring VA has the resources to meet demands in the local 
area. Not every area has appropriate VHA facilities or resources to 
provide these exams. In practice, the outside contractors have 
performed perfectly well, and currently the system relies on these 
important contract exams to operate smoothly. If the contracting 
authority were to expire, an already overstressed system would be 
further taxed, potentially to the breaking point. With wait times for 
exams a potential delaying factor in an already overlong disability 
claims process, losing this important piece could be disastrous to 
attempts to get the claims process back on track in a timely fashion.
    The American Legion supports the extension of the contracting 
authority for these C&P exams. There are other means that will help 
carry the load on the stressed system such as better use of Disability 
Benefits Questionnaires (DBQs) by private physicians to alleviate the 
need for additional exams, and better training of VA employees to 
recognize and accept private medical opinions that provide valid and 
complete information sufficient to allow rating of a claim, but losing 
the contracting authority would set the whole process back.
The American Legion supports the passage of H.R. 2423.

                                 <F-dash>
               Prepared Statement of Alexander Nicholson


--------------------------------------------------------------------------------------------------------------------------------------------------------
                             Bill #                                                  Bill Name                          Sponsor            Position
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 1288                                                                     WWII Merchant Mariner Service Act         Butterfield         No Position
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 1494                                                               Blue Water Navy Ship Accountability Act              Gibson             Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 1623                                                          VA Claims Efficiency Through Information Act          Negrete McLeod         Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 1809                                                          A bill to direct the VA to provide notice of            O'Rourke             Support
                                                                        average times for processing claims and
                                                                            percentage of claims approved, etc.
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 2086                                                                                   Pay as You Rate Act               Titus             Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 2138                                                               Ending VA Claims Disability Backlog and            McCarthy             Support
                                                                                             Accountability Act
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 2189                                                         A bill to establish a commission or task force             Miller             Support
                                                                   to evaluate the backlog of disability claims
                                                                         of the Department of Veterans Affairs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 2341                                                                       Veterans Pension Protection Act              Rooney         No Position
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 2382                                                           Prioritizing Urgent Claims for Veterans Act                Cook             Support
--------------------------------------------------------------------------------------------------------------------------------------------------------
H.R. 2423                                                            Disabled Veterans Access' to Medical Exams              Runyan             Support
                                                                                                Improvement Act
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Chairman Runyan, Ranking Member Titus, and Distinguished Members of 
the Subcommittee:
    On behalf of Iraq and Afghanistan Veterans of America (IAVA), I 
would like to extend our gratitude for being given the opportunity to 
share with you our views and recommendations regarding these important 
pieces of legislation.
    IAVA is the nation's first and largest nonprofit, nonpartisan 
organization for veterans of the wars in Iraq and Afghanistan and their 
supporters. Founded in 2004, our mission is important but simple - to 
improve the lives of Iraq and Afghanistan veterans and their families. 
With a steadily growing base of almost 270,000 members and supporters, 
we strive to help create a society that honors and supports veterans of 
all generations.
    As of this week, there are over 833,000 VA claims pending and over 
547,000 of those are backlogged. But those who find themselves in need 
of benefits and care from the VA are more than just numbers and 
aggregate data to be reported on and tracked each week. Each number 
represents a face, a person, a family, and a story. To help bring these 
stories to life for Congress, the media, and the American public, IAVA 
launched a new digital tool this week called The Wait We Carry, which 
can be accessed and explored online at www.TheWaitWeCarry.org. We 
encourage each of you and your staff to take a moment to look at this 
enlightening data visualization, and use it to find real stories of 
real constituents in your own home states and communities who are or 
were stuck in the backlog.
    IAVA believes that all veterans must have access to quality health 
care, benefits, and related care and services. The men and women who 
volunteer to serve in our nation's military do so with the explicit 
understanding that they and their families will be cared for during 
their period of service, and also after their period of service should 
they sustain injuries or disabilities while serving. IAVA is therefore 
able to offer its support for many of the bills that are the subject of 
this hearing today because we believe they would better enable the 
Department of Veterans Affairs (VA) to live up to this commitment on 
behalf of the American people.
H.R. 1288
    IAVA currently takes no position on H.R. 1288, the WWII Merchant 
Mariner Service Act, which would designate those who served as Merchant 
Mariners during WWII as veterans for the purpose of providing these 
individuals and their family members with access to certain benefits 
afforded to veterans. While we understand and acknowledge that there is 
an ongoing debate within the veteran community about whether to bestow 
veteran status and benefits on other categories of individuals who 
served our nation during previous periods of conflict, we defer to that 
debate and to our colleague veteran and military service organizations, 
whose memberships and constituencies this would impact more, on this 
recommendation.
H.R. 1494
    IAVA supports H.R. 1494, the Blue Water Navy Ship Accountability 
Act, which would require the Secretary of Defense to determine the 
proximity to the Vietnamese mainland of Naval vessels deployed to the 
Vietnamese area of operations during the war in Vietnam, and to provide 
that information to the Secretary of Veterans Affairs for the purpose 
of making it available to the public. Many veterans of the war in 
Vietnam were exposed to harsh chemicals like Agent Orange through 
direct contact. However, many others were exposed in indirect ways 
while serving on ships stationed off the Vietnamese coast.
    Keeping our promise to care for our veterans when they return home 
means constantly evaluating and analyzing not only the delivery of 
their benefits, but also the circumstances that qualify veterans for 
receipt of those benefits. IAVA supports this bill because it will 
expand the umbrella of access to resources for veterans afflicted with 
symptoms related to exposure to Agent Orange to those veterans who also 
came into indirect contact with the chemical.
H.R.1623
    IAVA supports H.R. 1623, the VA Claims Efficiency Through 
Information Act, which would direct the Secretary of Veterans Affairs 
to provide and post statistical information on disability claims on the 
VA website. This information would include key data points, such as the 
number of claims pending and the number of claims in backlog status, 
and these data would be further stratified by VA regional office and 
the type of medical condition for which a claim has been filed.
    The VA already posts this type of information in raw form on its 
website on a weekly basis, and it has been making important strides 
toward ending the claims backlog, but the work is far from complete. As 
of this week, the VA has 833,000 disability claims pending, over 
547,000 of which are in backlog status. IAVA supports this bill because 
it aims to provide America's veterans with clearer information and a 
more complete picture regarding the disability claims filing processes. 
At the same time, it will provide Congress with more detailed 
information on the areas of the claims filing process that are 
inefficient, enabling legislators to better formulate thoughtful 
policies.
H.R.1809
    IAVA supports H.R. 1809, which requires that the Secretary of 
Veterans Affairs post information on the average time for processing 
claims and the percentage of claims that have been approved on the VA 
website and in certain VA offices and facilities.
    The VA is currently in the process of attempting to simplify and 
streamline the process for filing and tracking a disability claim. 
However, at present a vast majority of claims are still stuck on paper 
rather than in the VA's electronic systems, leaving open the 
possibility of lost or misfiled claims for a large number of America's 
veterans. IAVA supports this bill because it aims to provide veterans 
with more information on the claims process which will assist them in 
making informed decisions about the best way to file their claim and 
the expectations they can have on the time it will take to complete the 
claims process.
H.R. 2086
    IAVA supports H.R. 2086, the Pay As You Rate Act, which would allow 
certain veterans filing disability claims to receive interim payments 
while their claim is being adjudicated. Too many veterans are waiting 
too long to receive the benefits they earned by answering their 
nation's call to service and volunteering to put themselves in harm's 
way. With over 524,000 VA disability claims in backlog status, the 
nation is failing to live up to its promise to help these veterans when 
they return home carrying the injuries of over a decade of war.
    The VA's special processing initiative for two-year old claims was 
developed and carried out to help alleviate this problem. Over a two-
month period, VBA was able to eliminate almost all two-year old claims 
from the backlog and provide provisional ratings based on existing 
evidence to those that could not be rated outright. This bill takes the 
success of this special processing initiative a step further by 
implementing the good faith practice of providing veterans with at 
least a portion of the benefits they have earned until their claims 
have been fully processed. IAVA supports this bill because it 
represents the kind of common sense approach to the disability claims 
process veterans deserve.
H.R. 2138
    IAVA supports H.R. 2138, the Ending VA Claims Disability Backlog 
and Accountability Act, which would direct the VA to end the disability 
claims backlog by Memorial Day of 2015 through the implementation of 
its strategic plan and require the VA to issue periodic reports on its 
progress toward implementation. This bill also mandates timely measures 
to increase information sharing between the VA, the Social Security 
Administration, and the Department of Defense, along with thorough 
training for claims processors.
    While IAVA acknowledged the ambitious intent of the VA's relevant 
strategic plan when it was announced, we joined many other advocates in 
expressing concern that the lacked specific details on how the metrics 
in the plan were derived, the data on which those metrics were based, 
and sufficient information on how the plan would be implemented. We 
also expressed concern that insufficient transparency along the way 
toward the VA's 2015 goal would make it hard for outside groups and 
Congress to hold the VA accountable for meeting it's own goals. We were 
also uncomfortable with the inability or unwillingness of VA leaders to 
articulate for Congress or the American public a date in 2015 by which 
its backlog-related goals would be accomplished.
    This bill seeks to address some of those shortcomings in the VA's 
strategic plan, especially with respect to keeping Congress and the 
public informed on its progress. America's veterans understand that 
goals can only be met when they are clearly defined. IAVA supports this 
bill because setting clear benchmarks for ending the backlog increases 
the incentive to get the job done and increases the ability of Congress 
to hold the responsible parties accountable.
H.R. 2189
    IAVA strongly supports H.R. 2189, which would establish a much 
needed multi-agency task force or working group to evaluate the 
underlying causes of the VA disability claims backlog, facilitate 
coordinated remedies to those causes, and help bring outside expertise 
to bear on the problems the VA has encountered that have resulted in 
the backlog growing as high as it did and persisting for as long as it 
has. The existence and work of this task force would in no way impede 
the ongoing work of the VA to address problems that have already been 
identified, and it would not simply study the matter from afar and 
issue a report years later. Instead, the Chairman has smartly and 
carefully crafted this bill to ensure that the task force would augment 
and support the VA's ongoing work, contribute more added value to that 
effort, report on it's findings early and often, and increase 
transparency throughout the process.
    The VA is certainly already working to address some of these issues 
and the confidence deficit that has resulted through reforms such as 
moving to an all-electronic filing system, increasing access to 
information, increasing staffing bandwidth and training, coordinating 
better with other elements within the VA, and communicating more 
efficiently and effectively with the Department of Defense and other 
executive agencies. All of these are welcomed reforms, but even the VA 
admits that there are still snags and challenges with which it needs 
help. The formation and existence of such a task force would facilitate 
getting the VA that coordination and outside help, and would also be an 
important facilitator of looking ahead to potential future challenges 
so that we do not wind up in this unfortunate situation again. IAVA 
strongly supports this bill and stresses again that it would in no way 
impede the good work and progress that the VA is already making on the 
backlog. Instead, this bill and the resulting task force would only 
help speed up that process and get the VA the information, resources, 
and expertise it needs to meet its goals. That is, after all, the 
common goal of IAVA, other military and veteran service organizations, 
this Committee, and the VA.
H.R. 2341
    IAVA takes no position on H.R. 2341, the Veterans Pension 
Protection Act, which aims to protect against financial gamesmanship in 
the pension claims process. The intent of this bill is to avoid 
unnecessary payment of pension compensation due to fraud and 
mischaracterized or hidden existing resources, but we also understand 
that some of our colleague veteran and military service organizations 
have concerns about how this specific proposal could impact veteran 
pensioners in other ways. IAVA acknowledges and appreciates the 
principles this bill is seeking to uphold and believes that all 
reasonable efforts should be made to eliminate waste, fraud, and abuse 
from government spending. However, at this time we take no position on 
this particular piece of legislation.
H.R.2382
    IAVA supports H.R. 2382, the Prioritizing Urgent Claims for 
Veterans Act, which would direct the Secretary of Veterans Affairs to 
prioritize claims of veterans who are terminally ill or suffering from 
life-threatening illnesses, and those veterans who are 70 years of age 
or older. The VA is currently processing over 833,000 disability 
claims, over 547,000 of which are in backlog status. These claims 
represent actual veterans experiencing actual hardships and health 
issues related to their service. One approach the VA has recently 
adopted to address this issue is the fast-tracking of claims for 
veterans experiencing financial hardship, homeless veterans, terminally 
ill veterans, former POWs, and Purple Heart recipients. This bill would 
codify a mandate to fast-track some of those categories of veterans, 
the principle behind which the VA seems to already support. IAVA 
likewise supports this bill because it expands on a practice that 
ensures that our nation's most vulnerable veterans are provided with 
the benefits they have earned quickly and effectively.
H.R. 2423
    IAVA supports H.R. 1623, the Disabled Veterans' Access to Medical 
Exams Improvement Act, which would extend the temporary authority of 
the Secretary of Veterans Affairs to contract with physicians to 
perform disability examinations through December 31, 2016. It would 
also extend the ability of a greater number of VA regional offices to 
use, thereby augmenting the ability of the VA to quickly and 
efficiently complete more claims.
    The VBA's special claims processing initiative for two-year old 
claims demonstrated how speeding up the medical exam portion of the 
claim development process can help reduce the overall time for 
developing and processing a claim. IAVA supports this bill because it 
expands upon measures to make the disability claim filing process more 
convenient for veterans and more efficient for the system, which will 
in turn help clear the backlog quicker.
    With over 833,000 claims pending and over 547,000 in backlog status 
as of this week, we should all be united in supporting every reasonable 
action to ensure that veterans can receive the benefits they earned in 
a timely and effective manner. IAVA has helped make this a top priority 
this year, and we will continue to push, pressure, publicize, and 
prioritize the disability claims backlog issue until we all succeed in 
finally ending the VA backlog.
    Mr. Chairman, we at IAVA again appreciate the opportunity to offer 
our views on these important pieces of legislation, and we look forward 
to continuing to work with each of you, your staff, and the 
Subcommittee to improve the lives of veterans and their families.
    Thank you for your time and attention.

                                 <F-dash>
            Prepared Statement of Heather Ansley, Esq., MSW
    Chairman Runyan, Ranking Member Titus, and other distinguished 
members of the Subcommittee, thank you for the opportunity to testify 
regarding VetsFirst's views on the bills under consideration today.
    VetsFirst, a program of United Spinal Association, represents the 
culmination of over 60 years of service to veterans and their families. 
We provide representation for veterans, their dependents and survivors 
in their pursuit of Department of Veterans Affairs (VA) benefits and 
health care before VA and in the federal courts. Today, we are not only 
a VA-recognized national veterans service organization, but also a 
leader in advocacy for all people with disabilities.
World War II Merchant Mariner Service Act (H.R. 1288)
    This legislation would provide individuals who served as coastwise 
merchant seamen during World War II with additional ways to prove their 
service. According to the GI Bill Improvement Act of 1977 (Public Law 
95-202) and the Veterans Programs Enhancement Act of 1998 (Public Law 
105-368), merchant mariners may use the following documentation to 
prove their eligibility for VA benefits: certificate of shipping and 
discharge forms, continuous discharge books, and company letters 
showing vessel names and dates of voyages. However, these forms of 
documentation are not always available.
    For individuals without applicable Coast Guard shipping or 
discharge forms, a ship logbook, a merchant mariner's document or Z-
card, or other official employment record, Social Security 
Administration records in conjunction with validated testimony given by 
the individual or his or her primary next of kin that the individual 
performed such service will be acceptable proof. In the case of 
documentation that has been destroyed or is unavailable, other official 
documentation shall be accepted. Providing such proof would allow these 
individuals to be eligible for burial benefits; medals, ribbons, and 
decorations; and the ability to identify as a veteran.
    We support this bipartisan legislation and urge its swift passage.
Blue Water Navy Ship Accountability Act (H.R. 1494)
    Veterans who served on vessels in and around the waters of Vietnam 
often face difficulties in proving they were exposed to Agent Orange. 
In order to benefit from presumed exposure to Agent Orange in filing a 
claim for disability benefits, veterans must prove that the vessels on 
which they served traveled on Vietnam's inland waterways or that the 
ship was docked to the shore or pierside and they disembarked (``boots 
on the ground''). Otherwise, veterans must actually prove that they 
were exposed to Agent Orange, which can be very difficult.
    Although being able to obtain official information regarding the 
area in which you served is critical for proving exposure to Agent 
Orange, VA does not have a full accounting of the locations of all 
vessels that served in the waters near Vietnam. Instead, VA must 
continue to work with the Department of Defense (DOD) to develop the 
information as individual claims are received. This delay contributes 
to the backlog and delays benefits for many Vietnam veterans who have 
disabilities due to their exposure to Agent Orange.
    This legislation would require DOD's Army and Joint Services 
Records Research Center (JSRRC) to perform a comprehensive review of 
the logs of all ships that served in waters near Vietnam to determine 
if the vessels served within the territorial waters of Vietnam. 
Specifically, the JSRRC must determine whether a vessel operated in the 
territorial waters of the Republic of Vietnam during the period 
beginning on January 9, 1962, and ending on May 7, 1975, and where the 
ship was located in relation to the shore. Proactively researching this 
information will ensure that veterans' claims for service connection 
are not delayed due to lack of information under the custody and 
control of the federal government.
    We urge swift passage of this legislation.
VA Claims Efficiency Through Information Act of 2013 (H.R. 1623)
    The backlog in processing initial claims for disability 
compensation is well known. Despite numerous efforts to address the 
backlog, the difficulty in processing claims in an efficient and timely 
manner has continued to elude VA. Addressing the backlog will require 
many solutions because the reasons for the backlog are not only found 
in the overall claims processing system but also in the customs and 
culture of each regional office.
    This legislation would require VA to make transparent information 
regarding the processing times of claims by regional office and by each 
medical condition for which a veteran seeks service connection or an 
increased rating. Specifically, VA will be required to post, by 
regional office, the average number of days between the date of the 
submittal of a claim and the date of the decision, the average number 
of days each claim is pending, the quality and accuracy rating of the 
claims adjudication process, the number of claims pending, those 
pending beyond 125 days and the number of claims completed by current 
month, the preceding month, current calendar year, and the preceding 
calendar year. This same information is also required by medical 
condition.
    Although we support this legislation, we believe that the 
information collected by medical condition would be more useful if the 
following requirements were included. First, we believe that it would 
be helpful to consider evaluating processing times for individual 
medical conditions by regional office. Reviewing information by 
regional office may highlight problems in processing certain claims 
that are nationwide in nature versus regional. In addition, instead of 
requesting information for each medical condition filed, it would be 
more useful to look at the top 10 conditions for which veterans file 
for compensation. Otherwise, VA would be forced to provide data for 
numerous medical conditions, including those for which very few 
veterans actually seek compensation.
    With these changes, we believe that this important legislation 
would be able to provide data that will not only help to address the 
backlog but also serve as an indicator moving forward about resource 
allocation and potential problem areas.
To direct the Secretary to provide notice of average times for 
        processing claims and percentage of claims approved (H.R. 1809)
    Veterans now have more options than ever for filing claims for 
veterans benefits. In addition to filing claims using traditional paper 
forms, veterans are also able to file claims electronically. For 
veterans who have identified all of the information needed to prove 
their claim, the opportunity to submit a fully developed claim promises 
faster processing times and will as of August 6, 2013, allow the 
veteran the opportunity to receive up to one year of additional 
retroactive benefits. In filing claims, veterans also have the 
opportunity to seek the assistance of a veterans service officer or 
other individual or to file a claim on their own.
    To ensure that veterans are able to make the best educated 
decisions regarding their benefits claims, this legislation would 
require VA to post information in regional offices, claims intake 
facilities and on the Internet regarding processing times and claims 
for which benefits are awarded. Specifically, VA will be required to 
provide information regarding the average processing time for claims, 
whether fully developed or not, and the percentage of claims that were 
awarded benefits. VA will also be required to provide information 
regarding claims granted by those in which a veteran was represented by 
a veterans service organization, those who used the assistance of 
another individual under a durable power of attorney, and those in 
which the veteran acted on his or her own behalf. Veterans would also 
be required to sign a notice when submitting a claim for benefits that 
acknowledges that they are aware of this information.
    We believe that veterans should have the information they need to 
make informed decisions regarding their benefits claims. However, we 
are concerned about the requirement for applicants to sign a notice 
stating that they are aware of this information. We are not opposed to 
ensuring that veterans have information regarding processing times and 
claims approved. But we believe that unless the notice is incorporated 
into all application forms for VA benefits, the need to receive and 
sign a separate form could add another layer to the claims process that 
would further delay it.
    If our concerns regarding the need to acknowledge receipt of the 
notice can be addressed, we think that this legislation would be very 
beneficial to veterans and other claimants.
Pay As You Rate Act (H.R. 2086)
    Veterans today are filing increasingly complex claims for 
disability compensation. For veterans who file claims with multiple 
issues, final resolution of all issues in a claim may require a 
significant amount of time. Once VA has reached a decision on each 
issue in a veteran's claim, the veteran should begin receiving any owed 
disability compensation without having to wait for a final adjudication 
of all issues raised in his or her claim.
    This legislation would require VA to make interim payments of 
disability benefits when an issue is favorably decided for the veteran, 
as those decisions are made. VA would be required to pay veterans as 
they rate individual issues for those claims that require VA to make 
decisions with respect to two or more disabilities. We hope that each 
decision on an issue will be considered a final decision so that if a 
veteran wishes to appeal his or her rating that process will be able to 
begin immediately.
    We support this legislation and urge is swift passage.
Ending VA Claims Disability Backlog and Accountability Act (H.R. 2138)
    VetsFirst believes that VA Secretary Eric Shinseki is personally 
committed to eliminating the backlog for veterans benefits. VA's 
current goal is in 2015 to process initial claims within 125 days of 
receipt at 98 percent accuracy. In recent years, however, the backlog 
has only continued to grow despite a variety of efforts to stem the 
tide.
    On January 25, 2013, VA published a strategic plan to accomplish 
this goal. The Strategic Plan to Eliminate the Compensation Claims 
Backlog addresses the Veterans Benefits Administration's (VBA) 
transformation plan which focuses on using people, process, and 
technology to end the backlog. Despite indications that VA may finally 
be turning the tide on the backlog, many members of Congress and 
veterans remain concerned that VA will not be able to finally address 
its processing delays. Furthermore, even if processing timelines are 
met, it is unclear whether quality will ultimately be sacrificed by 
those seeking to ensure that claims are completed within 125 days.
    This legislation would require VA to fully implement its strategic 
plan to ensure elimination of the claims backlog by Memorial Day 2015. 
At that time, all claims should meet VA's goal of processing claims for 
disability compensation within 125 days of receipt at 98 percent 
accuracy. VA would also be required to provide a supplemental report 
that provides metrics and timelines for implementing the plan. To 
ensure progress on the plan, the Government Accountability Office would 
be required to provide 90 day progress reports to Congress on VA's 
implementation.
    VetsFirst believes that VA must be held accountable for reaching 
the goal of processing initial claims within 125 days of receipt at 98 
percent accuracy. No single action will eliminate the claims backlog. 
Thus, we believe that requiring a continuing evaluation of the metrics 
that will show if progress is being made will be helpful in ensuring 
that VA is pursuing the correct policies and procedures and making any 
needed course corrections that will help them to succeed. We also 
believe, however, that reporting requirements must be carefully 
monitored to ensure that the information being collected is needed to 
facilitate ending the backlog and not diverting critical resources from 
the mission.
    In addition, the legislation would also require the expedited 
transfer of records under the purview of the Social Security 
Administration and DOD. It would also require the development of a plan 
to decrease to 30 days that amount of time needed to provide members of 
the National Guard and VA with needed medical records. The legislation 
would also require a training program to ensure that all newly hired 
claims processors receive at least three years of training and 
partnering with mentor processors who can assist in the training.
    We support the intent of this legislation but believe that 
implementation will be key to ensuring success.
To establish a commission or task force to evaluate the backlog of 
        disability claims of VA (H.R. 2189)
    This legislation would create a commission or task force to study 
the claims backlog, including the policies and procedures VA uses to 
evaluate claims and appeals for veterans benefits. The resulting study 
will be a comprehensive evaluation and assessment of the backlog of 
claims, an analysis of possible improvements and related issues. As 
part of the study, the commission or task force will be required to 
consider the interests of veterans, procedural and substantive due 
process issues, the responsible use of resources, and the importance of 
a veteran friendly claims process. The task force or commission will 
also address the backlog of claims and possible improvements to the 
claims process, along with a review of the appellate process.
    While we believe that VA must act to ensure that the goal of 
processing claims within 125 days at 98 percent accuracy is met, we are 
concerned that a commission or task force might hinder VA's current 
efforts by diverting resources from the overall push to address the 
backlog. However, VA must be held accountable for effectively 
implementing its Strategic Plan to Eliminate the Compensation Claims 
Backlog. A commission or task force that is narrowly focused on VA's 
current efforts related to the backlog might have benefit for veterans 
and the claims process.
    We also believe, however, that there is a need for a more broad-
based commission or task force that will thoroughly evaluate the entire 
claims process, including the appeals process. The work of such a 
commission or task force should begin with a review of the most recent 
commission and task force recommendations, including those of the 
Veteran's Disability Benefits Commission and the VA Claims Processing 
Task Force. This would allow the task force or commission to evaluate 
previous recommendations, and determine whether unimplemented 
recommendations would be beneficial in improving the claims process, 
and what additional recommendations are needed. The commission or task 
force would also need to evaluate the role of technology in claims 
processing, the effectiveness of veterans service organizations, 
agents, and attorneys in assisting veterans in prosecuting their 
claims, and whether the current claims processing system meets the 
goals and spirit of actually assisting veterans with their claims.
    Any broad-based commission or task force would also need to be 
forward thinking and consider claims processing beyond 2015. Although 
ending the backlog and increasing claims quality are top priorities, we 
must also anticipate the needs of claims processing beyond the next 
couple of years. Thus, it should also consider how to maximize 
efficiencies that may be afforded through technology and the changing 
needs of veterans. Otherwise, we may exchange the backlog or another 
set of equally daunting concerns.
    We also believe that any broad-based commission or task force 
should include a focus on the appeals process. The VA's Office of 
Inspector General (OIG) reported in a May 2012 report \1\ that the 
inventory of appeals had increased more than 30 percent between fiscal 
year 2008 and fiscal year 2010. The OIG's report concluded that, 
``VBA's management of appeals was ineffective in providing timely 
resolution of veterans' appeals.'' Clearly, a focused review of the 
appellate process is needed.
---------------------------------------------------------------------------
    \1\ Department of Veterans Affairs Office of Inspector General, 
Veterans Benefits Administration: Audit of VA Regional Office's Appeals 
Management Process (May 30, 2012).
---------------------------------------------------------------------------
    Thus, we believe that a task force or commission should focus 
either on the backlog of initial claims or the broader claims process, 
including appeals, but not both. We would ask that either the task 
force proposed by this legislation be limited in scope or that the 
focus and timeframes be broadened to include all areas of concern.
Veterans Pension Protection Act (H.R. 2341)
    VA's pension program provides benefits for veterans who are low-
income and are either permanently and totally disabled, or age 65 and 
older, if they served during a period of war. These benefits are 
critical for veterans who have few other resources available to them.
    Because these benefits are very important to low-income and/or 
disabled veterans, we believe that these benefits must be protected to 
ensure that they are fully available when needed. As a result, we do 
not condone fraudulent efforts to benefit from the VA's pension 
program. We also believe, however, that people should not have to 
impoverish themselves just to receive the services that they need 
whether in VA's program or any other similar government benefits 
program.
    The look-back proposed in this legislation seeks to preempt efforts 
to transfer assets to make veterans eligible for pension benefits. 
Without commenting further on the specific merits of this proposal, we 
are concerned that the legislation does not exempt transfer of assets 
to special needs trusts. Special needs trusts are designed to 
supplement the services and supports received by people with 
disabilities through Social Security and Medicaid. The funds in a 
special needs trust may be used for expenses such as modifying a home 
for accessibility, paying for recreational activities, or purchasing 
tickets to visit family. If the funds were made directly available to 
the individual, then he or she may lose eligibility for Supplemental 
Security Income (SSI) benefits and Medicaid services and supports, 
which are income dependent. By placing the funds in a special needs 
trust, parents can ensure, for instance, that their disabled children 
retain eligibility for these crucial benefits and services.
    A good example illustrating the importance of special needs trusts 
is found in the current quandary with DOD's survivor benefit plan 
(SBP). An SBP annuity allows for retiring servicemembers to make a 
portion of their retired pay available to their survivors. However, 
federal law requires that these benefits must be paid to a ``natural 
person.'' Thus, if a child with a disability is in receipt of income 
dependent services and supports, then the child may lose these benefits 
and services because SBP funds cannot be paid to a special needs trust. 
Unfortunately, the amount received from the annuity may not be 
sufficient to pay for the services lost. Thus, the child not only loses 
eligibility for the services but then is unable to pay for them 
privately.
    In the November 2011 edition of Exceptional Parent Magazine, Kelly 
A. Thompson, an attorney, relayed how this dilemma played out for one 
adult child with a disability.

    ``A recent example concerns a 52 year-old man with an intellectual 
disability who had lived in a group home for 18 years and attended a 
day program for individuals with disabilities. His only income was SSI 
of $674 per month. His SSI benefits and Medicaid paid for his programs 
and services. However, when his father, a retired Navy officer, died, 
his adult son began to receive military SBP in the amount of $2,030 per 
month. This SBP payment made him ineligible for Medicaid waiver 
services. The private pay cost of the programs and services he was 
receiving prior to his father's death is $8,600 per month, more than 
four times his SBP payment. He lost his group home placement, as well 
as his day program, and was transferred to a state ``training 
center''--a large institutional setting isolated from the community.'' 
\2\
---------------------------------------------------------------------------
    \2\ Kelly A. Thompson, ``The Dilemma for Military Parents of 
Children with Disabilities.'' EP Magazine. November 2011.

    People with disabilities greatly benefit from access to special 
needs trusts. In the Omnibus Budget Reconciliation Act of 1993, 
Congress exempted the transfer of assets for the benefit of a person 
with a disability under the age of 65 from the look-back provisions of 
the Medicaid program. Thus, not only is a person with a disability able 
to benefit greatly from a special needs trust but the transfer of 
assets to the trust for the benefit of another does not count against 
the transferor in the event that he or she subsequently needs Medicaid 
assistance. In light of the importance of special needs trust, it is 
clear that these benefits should be available for the disabled children 
of veterans, without disadvantaging the veteran in receiving VA pension 
benefits if needed.
    It should also be noted that a person with a disability who is 
under the age of 65 may have his or her own assets transferred into a 
special needs trust that directly benefits him or her. These types of 
trusts may only be established by a parent, grandparent, legal 
guardian, or a court and allow the individual to remain eligible for 
Medicaid services and supports. Any remaining funds available at death 
must be used to pay-back the Medicaid program for services provided.
    Any efforts to penalize transfer of assets under the VA's pension 
program must provide for appropriate exemptions for transfers to 
special needs trusts similar to those available through other federal 
programs also based on financial need.
Prioritizing Urgent Claims for Veterans Act (H.R. 2382)
    In cases pending before the Board of Veterans' Appeals, veterans 
who are of advanced age (75 years of age or older), suffering severe 
financial hardship, or seriously ill may under regulation advance on 
the docket. VBA has recently testified that initial claims filed by 
veterans who are homeless, terminally ill, or Medal of Honor recipients 
or were Prisoners of Wars are processed as expeditiously as possible. 
However, there are no similar regulatory or statutory protections for 
initial claims.
    This legislation would require the Secretary to provide priority 
for veterans who are age 70, terminally ill, or who have life-
threatening illnesses. We strongly believe that statutory protections 
for our most vulnerable veterans are necessary to ensure that benefits 
are available to those who are in the most need. However, we suggest 
that this legislation be amended to also include those veterans who are 
homeless and those who are suffering severe financial hardship.
    We believe ensuring that those veterans who have dire need for 
benefits should have priority in claims processing. We hope that this 
legislation will be expanded to include other vulnerable veterans and 
urge its subsequent passage.
Disabled Veterans' Access to Medical Exams Improvement Act (H.R. 2423)
    Veterans who file claims for disability benefits are often 
scheduled for medical examinations that will provide VA with the 
information needed to evaluate their claims. To ensure that veterans' 
claims are not unduly delayed due to the need for medical information, 
Congress gave VA the temporary authority to use contract examiners in 
the Veterans' Benefits Improvement Act of 1996 (Public Law 104-275). 
Congress has continued to extend this authority, which currently 
expires on December 31, 2013.
    This legislation would extend VA's authorization to use contract 
physicians to perform examinations required for disability benefits 
claims. The authority, which would be extended to December 31, 2016, 
would also allow for licensed physicians to travel to other 
jurisdictions to perform exams as long as they were conducted pursuant 
to VA's contract. Use of the authority would be limited to 15 or fewer 
regional offices that will be selected based on the number of 
backlogged claims, the total pending case workload, the length of time 
cases have been pending, the accuracy of completed claims and the 
overall timeliness of completed cases in each region.
    We support this legislation because it will not only extend VA's 
authority to use contract physicians to perform medical examinations 
for compensation purposes but because it will also allow VA to move 
resources to the areas with the most need. Veterans who are served by 
regional offices that experience high volume and delays should not be 
further delayed in receiving an examination if VA already has contract 
resources available. We believe that this legislation would provide VA 
with another important tool in addressing the backlog.
    Thank you for the opportunity to testify concerning VetsFirst's 
views on these important pieces of legislation. We remain committed to 
working in partnership to ensure that all veterans are able to 
reintegrate in to their communities and remain valued, contributing 
members of society.
Executive Summary
World War II Merchant Mariner Service Act (H.R. 1288)
    We urge swift passage of this legislation.
Blue Water Navy Ship Accountability Act (H.R. 1494)
    We support this legislation because it would provide information 
that will facilitate processing disability claims related to Agent 
Orange.
VA Claims Efficiency Through Information Act of 2013 (H.R. 1623)
    We support this legislation but believe that it would be 
strengthened by focusing on the top 10 medical conditions for which 
veterans file for compensation as opposed to all conditions.
To direct the Secretary to provide notice of average times for 
        processing claims and percentage of claims approved (H.R. 1809)
    We support this legislation, but are concerned about the need for 
applicants to sign a notice acknowledging receipt of the information 
due to possible delays in claims processing resulting from failure to 
submit it.
Pay As You Rate Act (H.R. 2086)
    We support swift passage of this legislation.
Ending VA Claims Disability Backlog and Accountability Act (H.R. 2138)
    We support the intent of this legislation but believe that 
reporting requirements would need to be monitored to ensure that the 
information being collected is needed to facilitate ending the backlog.
To establish a commission or task force to evaluate the backlog of 
        disability claims of VA (H.R. 2189)
    We believe that a task force or commission should focus either on 
the backlog or the broader claims process, including appeals, but not 
both.
Veterans Pension Protection Act (H.R. 2341)
    We do not have an official position on this legislation but believe 
that any efforts to penalize transfer of assets must provide for 
appropriate exemptions for transfers to special needs trusts.
Prioritizing Urgent Claims for Veterans Act (H.R. 2382)
    We support passage of this legislation but believe that additional 
prioritization categories would be beneficial for our most vulnerable 
veterans.
Disabled Veterans' Access to Medical Exams Improvement Act (H.R. 2423)
    We support passage of this legislation
    Information Required by Clause 2(g) of Rule XI of the House of 
                            Representatives
    Written testimony submitted by Heather L. Ansley, Vice President of 
Veterans Policy; VetsFirst, a program of United Spinal Association; 
1660 L Street, NW, Suite 504; Washington, D.C. 20036. (202) 556-2076, 
ext. 7702.
    This testimony is being submitted on behalf of VetsFirst, a program 
of United Spinal Association.
    In fiscal year 2012, United Spinal Association served as a 
subcontractor to Easter Seals for an amount not to exceed $5000 through 
funding Easter Seals received from the U.S. Department of 
Transportation. This is the only federal contract or grant, other than 
the routine use of office space and associated resources in VA Regional 
Offices for Veterans Service Officers that United Spinal Association 
has received in the current or previous two fiscal years.

                                 <F-dash>
                       Statements For The Record

                         HON. THOMAS J. ROONEY
    Last year, I asked my constituents to help my office identify fraud 
against our nation's veterans, particularly elderly veterans. Many came 
forward to report scams against themselves, their friends and family 
members.
    One of the most common scams both my constituents and the American 
Legion brought to my attention was a practice called ``pension 
poaching.'' Here's how it typically works:

    <bullet>  Financial advisors and firms seeking to prey on elderly 
and disabled veterans - often going into nursing homes under the guise 
of offering a ``free lunch seminar'' - promise to help them qualify for 
VA pension benefits if they divert their assets into trusts or 
annuities.
    <bullet>  Currently the VA only considers net worth at the time a 
veteran applies for benefits, therefore the Department cannot determine 
if an applicant has recently diverted their assets in order to qualify.
    <bullet>  The firms profit from those trusts or annuities, but they 
are often poor investments for seniors. As a result, victims have lost 
access to their savings in exchange for a small pension. Meanwhile, the 
VA pension fund is further drained for veterans in need.
    <bullet>  These firms further profit by charging veterans 
exorbitant fees and selling them additional, costly services.

    As a veteran, I am disgusted by the actions of those who would prey 
on America's elderly and disabled veterans. These financial predators 
are not only scamming elderly veterans out of their life savings, 
they're also undermining the VA pension program in the process.
    This month, I reintroduced bipartisan legislation to combat this 
scam against retired veterans and to strengthen the VA pension program. 
I'm proud to have Representatives Kurt Schrader (D-OR), Gus Bilirakis 
(R-FL) and Ron Barber (D-AZ) join me as original cosponsors of this 
bill, the Protecting Veterans Pensions Act (H.R. 2341).
    Our bill would provide a simple solution to stop this scam. H.R. 
2341 would eliminate the loophole that allows predators to divert 
veterans' assets in order to improperly qualify them for a pension. By 
creating a three-year ``look-back'' period to determine eligibility for 
the VA pension program, we can ensure that bad actors are not taking 
advantage of the system, and ensure the benefits for those veterans 
that truly qualify for the program.
    Importantly, we have been assured by VA that this will not slow 
down the application process for qualified, retired veterans seeking a 
pension.
    I appreciate the Committee's consideration of our bipartisan bill 
to stop scams against our nation's veterans, and hope to see this 
legislation move through the House expeditiously.

                                 <F-dash>
                       DISABLED AMERICAN VETERANS
    Chairman Runyan, Ranking Member Titus and Members of the 
Subcommittee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs. As you know, DAV is a non-profit 
veterans service organization comprised of 1.2 million wartime service-
disabled veterans dedicated to a single purpose: empowering veterans to 
lead high-quality lives with respect and dignity. DAV is pleased to be 
here today to present our views on the bills under consideration by the 
Subcommittee.
                               H.R. 1288
    H.R. 1288, the World War II Merchant Mariner Service Act, would 
direct the Secretary of Homeland Security to accept additional 
documentation when considering the application for veteran status of an 
individual who performed service as a merchant seaman during World War 
II.
    Specifically, H.R. 1288 would expand methods for validating certain 
service considered to be active service by the Secretary of Veterans 
Affairs for the purpose of verifying that an individual performed 
service under honorable conditions, thereby satisfying the requirements 
of a merchant seaman who is recognized pursuant to section 401 of the 
GI Bill Improvement Act of 1977.
    DAV has no resolution or position on this matter.
                               H.R. 1494
    H.R. 1494, the Blue Water Navy Ship Accountability Act, would 
direct the Secretary of Defense to review the logs of each ship 
operating under the authority of the Secretary of the Navy that is 
known to have operated in the waters near Vietnam during the Vietnam 
era.
    Specifically, H.R. 1494 would require the Secretary of Defense to 
review all of the ship operation logs to determine if such ship 
operated in the territorial waters of Vietnam during the period of 
January 9, 1962, to May 7, 1975, noting the specific dates, location 
and distance from shore for each ship. This information would then be 
provided to the Secretary of Veterans Affairs for verification purposes 
in support of claims received for entitlement to certain benefits, such 
as disability compensation for specific presumptive diseases or 
illnesses related to exposure to Agent Orange or other herbicides 
containing dioxin.
    DAV resolution No. 016, states in part, `` . . . [t]he exclusion of 
territorial seas or waters from the term ``Republic of Vietnam'' is 
contrary to the plain and unqualified language of the law and illogical 
insofar as its premise is that herbicides could be carried away from 
the area of application across any expanse of land but not equal or 
less expanses of water . . . veterans who served on ships no more 
distant from the spraying of dioxin containing herbicides than many who 
served on land are arbitrarily and unjustly denied benefits of the 
presumption of exposure and thereby the presumption of service 
connection for their herbicide-related disabilities.''
    Complicating this matter is the VA's demonstrated difficulty in 
obtaining information about each ship, and the respective service 
members aboard that performed service in the territorial waters, which 
may have been exposed to dioxin containing herbicides. This legislation 
would improve the process by providing important information and by 
accurately identifying all ships serving under the authority of the 
Secretary of the Navy.
    As such, in accordance with DAV resolution No. 016, we support 
enactment of H.R. 1494 and any legislation directed at including the 
waters offshore in the phrase ``served in the Republic of Vietnam.''
                               H.R. 1623
    H.R. 1623, the VA Claims Efficiency Through Information Act of 
2013, would direct the Secretary of Veterans Affairs to make publicly 
available certain information about pending and completed claims for 
compensation under the laws administered by the Secretary.
    Essentially, this legislation would require the Secretary of 
Veterans Affairs make specific statistical claims-related information 
available and publicly accessible on the VA's website. In particular, 
H.R. 1623 would require each VA Regional Office (VARO) to provide 
information such as the average number of days pending for a claim and 
the quality and accuracy of such claims for the three-month period 
immediately preceding enactment and at one year following.
    This information would also include the number of claims pending, 
the number of claims pending more than 125 days and the number of 
claims completed during the current month to date, the preceding 
current month, the calendar year and the preceding calendar year. 
Similarly, this legislation would require the same type of report from 
VAROs which breaks down the aforementioned claims by medical condition. 
Additionally, the Secretary of Veterans Affairs would be required to 
update this information on the VA's website every seven days.
    While a great deal of this type of statistical information is 
presently available on VA's website, this legislation requires a more 
in-depth breakdown of information about pending claims. One benefit to 
making this information available is transparency in the claims 
process, the inclusion of the veteran into the process, and potentially 
allowing an individual to become more educated about the claims process 
even before a claim is submitted; however, we recommend the language of 
the bill be expanded to include the specific link to the information 
being published on VA's website in every notice sent to a veteran.
    DAV supports the intent of H.R. 1623 of making this type of 
information available on VAs website, however, we are concerned about 
the possibility that this legislation, if enacted, may cause more work 
for VA at a time when the primary focus is directed at reducing the 
backlog of claims.
                               H.R. 1809
    H.R. 1809 would amend title 38, United States Code, to direct the 
Secretary of Veterans Affairs to provide notice of average times for 
processing claims and percentage of claims approved. The goal of 
legislation is to encourage veterans to seek the assistance of veterans 
service organizations (VSOs) and file claims for VA benefits using the 
Fully Developed Claim (FDC) process.
    H.R. 1809 would make available to all current and potential veteran 
claimants useful information regarding the success or allowance rate of 
claims in each VARO by requiring the Secretary of Veterans Affairs to 
publish this information on VA's website. Additionally, this 
information will be required to be conspicuously posted in every VARO 
and, when a claim is received, VA will notify the claimant of such 
information, including information about the benefit of filing a FDC, 
such as faster processing time and eligibility to receive up to an 
extra year of benefit payments.
    The type of information this legislation is seeking to publicize to 
every claimant is the average processing time of claims and the 
percentage of allowed or granted claims for those with representation 
versus those without representation. Additionally, H.R. 1809 will 
require the information to be broken down into the percentage of claims 
that were FDC submitted electronically versus paper as compared to 
those who do not file their claims through the FDC program in 
electronic, standard paper or non-standard paper form.
    DAV supports the principle of this legislation, which is to bring 
better awareness and information to a claimant prior to filing a claim 
for benefits, similar to H.R. 1623. However, H.R. 1809 is directed at 
providing more in-depth information to a claimant about representation 
in keeping with the primary goal of encouraging claimants to submit 
their claims for benefits through the FDC program.
    DAV agrees with providing and making available information about 
the percentage of claims allowed for those with representation versus 
those without representation. We also agree with encouraging claimants 
to submit their claims through the FDC process, as is a standard 
practice for DAV. Nonetheless, DAV believes, in order to fully reach 
the goal of this legislation and, more importantly, to benefit the 
claimant in the best way possible, the posted information should 
provide a breakdown of the number of claims represented and the 
allowance rate for each VSO and for representatives other than VSOs. 
Otherwise, this information may not allow an individual to make an 
informed decision about representation. Moreover, when publishing this 
type of information, it should include the fact that DAV and other VSOs 
provide representation to virtually any claimant in the process, with 
the exception of frivolous or fraudulent claims. Conversely, others 
providing representation, including attorneys, tend to be much more 
selective in their representation; often choosing to represent only 
claims wherein the predicted outcome is favorable to the claimant. DAV 
believes this should also be made clear to a claimant in the published 
information.
    Like H.R. 1623, DAV supports the intent of H.R. 1809, which will 
require VA to make this information available to claimants; however, we 
are concerned about the possibility that this legislation, if enacted, 
may cause more work for VA at a time when their primary focus is 
directed at reducing the backlog of claims.
                               H.R. 2086
    H.R. 2086, the Pay as You Rate Act, would direct the Secretary of 
Veterans Affairs to make interim payments of disability compensation 
benefits for any disability for which a decision can be rendered prior 
to the complete adjudication of such claim. Currently, when VA receives 
a claim with multiple contentions and some issues can be adjudicated 
and finalized and others need further development, VA can make a 
decision to grant or deny specific issues and defer those needing 
further development.
    Although VA can finalize and initiate payment for those issues 
ready-to-rate, they simply defer final action until all issues, 
specifically those needing development, have been completed. According 
to VA, this allows them to produce one rating only; however, with 
development being the major reason for delay in most claims this means 
compensation for the other ready-to-rate conditions must wait - the 
veteran must wait.
    Moreover, VA already has the authority to do what this legislation 
seeks, to provide interim compensation payments, or rather, initiate 
compensation payments for those issues that can be finalized without 
delay. VA, for their own convenience, chooses not to take such action 
rather than taking action that is more beneficial to a veteran.
    In accordance with DAV resolution No. 205, we support enactment of 
H.R. 2086, as it will codify and require the Secretary of Veterans 
Affairs to provide compensation payments for those conditions that can 
be finalized, thereby providing financial support to many veterans much 
sooner in the process.
                               H.R. 2138
    H.R. 2138, the Ending VA Claims Disability Backlog and 
Accountability Act, contains several provisions intended to help reduce 
the backlog of pending veterans' disability compensation claims. The 
legislation seeks to address several of the key findings and 
recommendations contained in the General Accountability Office (GAO) 
report (GAO-13-89) on claims processing issued in December 2012.
    Section 3 of the bill would require the Secretary to eliminate the 
backlog by May 25, 2015 (Memorial Day), and to submit to Congress a 
report containing detailed timelines and metrics with which to judge 
VA's progress toward meeting that goal. Three years ago, Secretary 
Shinseki established the goal of having all claims adjudicated within 
125 days with 98 percent accuracy by 2015; however, no specific end 
date or interim goals were stated. In January of this year, VA 
transmitted to Congress its ``Strategic Plan to Eliminate the 
Compensation Claims Backlog,'' which contained an overview of the 
claims transformation strategy developed by VBA over the past several 
years, but it did not include interim milestones.
    DAV and other major VSOs involved in assisting veterans file claims 
have been regularly consulted by VBA on most of the initiatives and 
programs included in this plan, including Fully Developed Claims 
(FDCs), Disability Benefit Questionnaires (DBQs) and the Veterans 
Benefits Management System (VBMS), and we support the implementation of 
this plan. However, we have consistently called for stronger oversight 
to ensure that VBA is on the right track to reform the claims process 
so that every claim is decided right the first time, not just to 
eliminate the current backlog.
    By requiring detailed timelines and metrics with which to judge the 
progress of the transformation plan, this provision would provide 
Congress and VSOs with valuable tools to better judge VBA's progress, 
and to help make recommendations for course corrections, if they are 
necessary. Regarding the end date for eliminating the backlog, we would 
recommend that the Secretary be required to include with the interim 
goals required by this Section a specific end date in 2015 in order to 
properly set expectations inside and outside of VBA. With that small 
change, we would strongly support this section.
    Section 6 of the bill would require GAO to issue progress reports 
on how well VBA is implementing its plan and meeting the specific 
timelines and targets required by Section 3 discussed above. We support 
this provision to provide an additional independent perspective on 
whether VBA is on track to meet its stated goals and offer expert 
recommendations to improve the claims process.
    Section 4 of the bill would require VA to enter into agreements 
with the Social Security Administration (SSA) and Department of Defense 
(DOD) to require both agencies to transfer records requested by VA to 
adjudicate claims for disability compensation within 30 days of VA's 
request. This provision would also require VA and DOD to develop and 
submit to Congress a plan to ensure that National Guard medical records 
are also transferred to VA within 30 days of a request.
    The longest delays in processing compensation claims result from 
incomplete medical, service and financial records needed to support the 
claim. While all delays in receiving records are problematic, it is 
simply unacceptable to have such delays for records in the custody of 
federal or state governmental agencies, and therefore DAV supports this 
section of the bill. Furthermore, in order to strengthen this Section, 
we recommend that language be included so that federal or state 
agencies that are not able to comply with such record requests in the 
timeframes established be required to respond in writing stating a 
reason for their failure time they are unable to comply.
    Section 5 of the bill seeks to strengthen VBA's training programs 
for new employees by requiring such training to continue for three 
years. DAV has long called for increasing the quality and quantity of 
training provided to VBA's claims processors, not just for new 
employees, but for all employees as part of a continuing education 
program, and thus we support the intention of this section. However, 
the bill's language does not provide specific details of how the 
proposed three-year training program for new employees would be 
different than current training, including on-the-job-training and 
mentoring programs, or how it would affect continuing education 
programs. We would be pleased to work with the Committee to develop 
more specific proposals that could improve all of VA's training 
programs.
                               H.R. 2189
    H.R. 2189 would establish a commission or task force to study and 
report on the causes of the backlog of compensation claims and make 
recommendations on how to improve VA's claims adjudication and appeals 
process. The bill would require the first report to be delivered to 
Congress within 60 days of the first meeting of the commission or task 
force, require additional interim reports every 30 days thereafter, and 
require the final report to be issued 180 days after the first meeting. 
The Secretary of Veterans Affairs would be required to either implement 
the recommendations of the commission or task force, or submit to 
Congress a justification for failing to implement any recommendations. 
The commission or task force would be composed of 15 individuals 
appointed by Congressional and Administration leaders, approximately 
half of whom are required to be veterans. The commission or task force 
itself would then appoint five nonvoting, nonmember advisors from VSOs, 
and would have a mandate to seek advice from additional outside 
experts.
    Over the past several years, there has been a renewed and 
intensified focus put on resolving the longstanding systemic problems 
plaguing VA's claims processing system. Facing a growing backlog of 
pending claims; projecting a sharp rise in the number to be filed in 
the future; and realizing that its paper-based system was no longer 
capable of managing its workload, VBA in 2009 reached out to VSOs 
involved in the claims process to seek our input on how to develop a 
new system. VBA leadership admitted that their old system was broken 
and committed to building a new system based on the paradigm of getting 
each claim done right the first time.
    Since then, DAV and other VSOs have worked closely and 
collaboratively with VBA to develop, review and oversee the 
implementation of dozens of new initiatives designed to improve the 
people, processes and technology that adjudicate claims for disability 
compensation and other benefits. During this time, GAO has also closely 
studied the problems and issued numerous reports and testimonies, 
making detailed recommendations. In addition, the Advisory Commission 
on Disability Compensation (ACDC), statutorily established as follow-on 
to the Veterans Disability Benefits Commission (VDBC), has also 
provided oversight and input to VBA over the past four years, bringing 
additional outside expertise and perspective to bear on claims 
processing reform, and continues in this role today.
    And of course Congress has and continues to vigorously examine the 
causes of the backlog and review VBA's plans to design and build a new 
processing system. Both House and Senate authorization and 
appropriations committees have conducted dozens of hearings and made 
numerous recommendations on how to improve the claims process, address 
the current backlog of claims, and prevent future backlogs from 
recurring. There have been new studies and reports required, as well as 
new statutory changes approved to streamline VBA's processes, often in 
consultation with both VBA and VSOs.
    Just last month, the House Committee on Veterans' Affairs held an 
insightful roundtable discussion bringing insurance industry experts 
together with VBA's compensation experts to see how private sector 
experience might benefit the current transformation efforts. DAV and 
our partners in The Independent Budget have recommended that a similar 
panel of outside, private sector experts from major IT companies review 
the progress of VBMS.
    Over the past year, VBA has rolled out most of the major components 
of its transformation plan to all of its Regional Offices, including 
the Transformation Organizational Model and the VBMS. Individual 
initiatives, such as FDC, Disability Benefit Questionnaires (DBQs), and 
Quality Review Teams (QRTs), have also been implemented and VBA is 
starting to realize the benefits of these new programs. Legislative 
changes made over the past couple of years to streamline unnecessary or 
burdensome steps in the claims process are also just being implemented.
    Given all of the research, discussion, consultation and planning 
that has taken place over the past several years, as well as the 
implementation and rollouts that have only recently taken place, we 
believe that the timing is not right for a new commission or task force 
focused on the causes of the backlog, or developing new solutions, 
until the current plan has had time to take full effect. In fact, there 
is beginning to be some concrete evidence that measurable progress is 
being made.
    The number of claims currently pending on Monday, June 24th, was 
approximately 802,000, which is down from approximately 889,000 two 
months earlier. The number of claims pending over 125 days, VBA's 
official target for backlogged claims, has also fallen over the past 
two months from 611,000 to about 524,000 claims. There is still a long 
way to go before it is certain that these reductions will continue at 
this pace, or whether the transformation is working as planned, however 
at this juncture we believe that VBA's focus should remain on 
optimizing the transformation rather than considering new changes 
before the new system has had sufficient time to operate. For the above 
reasons, we do not support this legislation at this time.
                               H.R. 2341
    H.R. 2341, the Veterans Pension Protection Act, would amend title 
38, United States Code, to require the Secretary of Veterans Affairs to 
consider the resources of individuals applying for pension that was 
recently disposed of by the individuals for less than fair market value 
when determining the eligibility of such individuals for such pension.
    DAV has no resolution or position on this matter.
                               H.R. 2382
    H.R. 2382, the Prioritizing Urgent Claims for Veterans Act, would 
amend title 38, United States Code, to establish a priority for the 
Secretary of Veterans Affairs in processing certain claims for 
compensation. This legislation seeks to codify an existing practice 
within VA, which is to process compensation claims with expedience and 
priority for those veterans who are age 70 or older, terminally ill, 
suffering life-threatening illness, financially destitute, homeless, or 
other grave situation. However, H.R. 2382 limits the claimants included 
to be veterans age 70 or older, terminally ill, or with life-
threatening illness.
    While we certainly appreciate the principle of this legislation to 
codify this existing practice, we believe it is unnecessary as the VA 
generally has no difficulty with their current practice expeditiously 
advancing the claims of individuals who are experiencing extreme or 
grave situations or circumstances. In fact, if this practice is 
codified it may be detrimental to some claimants by limiting the 
classification of circumstances. In doing so, H.R. 2382 would adversely 
impact VAs ability to determine priority or urgency for many claimants 
with severe circumstances, other than those included.
                               H.R. 2423
    H.R. 2423, the Disabled Veterans' Access to Medical Exams 
Improvement Act, would extend and expand VA's authority to enter into 
contracts with private physicians to conduct medical disability 
examinations as an important tool in processing the volume of pending 
and future claims for disability compensation. Under this legislation, 
VA's authority to contract for disability examinations would be 
extended until December 31, 2016; it is currently set to expire at the 
end of this year. The bill would also expand from 10 to 15 the number 
of VA Regional Offices (VAROs) that could participate in this pilot 
program. Finally, the legislation would allow licensed physicians under 
a VA contract who are performing disability examinations for claims to 
conduct such examinations in any state without having to be licensed in 
that particular state.
    Over the past decade, DAV National Service Officers (NSOs) have 
found that the quality and timeliness of compensation exams conducted 
by contractors was generally as good - sometimes better - than 
disability exams conducted by VA physicians, who are usually more 
focused on treating veterans rather than evaluating their disabilities 
under the VA Schedule for Rating Disabilities. Moreover, with demand 
for VA medical care rising, it is important that VA's treating 
physicians, especially specialists, remain focused on providing high 
quality care to their patients. In addition, the more technologically-
advanced and user-friendly scheduling and IT systems used by some 
contractors has also contributed to higher customer satisfaction scores 
from veterans receiving contract exams. For these reasons, we support 
extending the authorization for at least an additional three years to 
ensure that VBA continues to have this tool to help reach timely claims 
decisions. We would even recommend that VA consider whether it might be 
more cost efficient to extend the authorization further than three 
years if that would help to reduce the average annual cost and conserve 
precious budgetary resources.
    For many of the reasons above, we also support expanding the pilot 
program to more than 10 VAROs; in fact we don't believe it's necessary 
to place an arbitrary cap on the number of VAROs allowed to use 
contract exams. The decision to use or not use contract examinations is 
and should be determined solely by VA and VAROs participating in the 
current pilot program based on their workload, local capacity and 
available resources. If contract disability compensation exams provide 
the same or better quality and timeliness, at the same or less cost per 
exam compared to the actual cost of using VA physicians, we find no 
compelling reason to limit their use to only 10 or even 15 VAROs. As 
such, we recommend that the Committee consider removing altogether the 
limitation on the number of participating VAROs, thereby allowing each 
individual VARO to determine when and if they use contract exams, 
basing their decisions solely on the best interest of veterans.
    DAV does not have a resolution on allowing licensed physicians to 
conduct medical disability examinations across state lines and we have 
no position on that section of the bill.
    Mr. Chairman, this concludes my testimony and I would be happy to 
answer any questions from you or members of the Subcommittee.

                                 <F-dash>
                     PARALYZED VETERANS OF AMERICA
    Chairman Runyan, Ranking Member Titus, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to offer our views on legislation impacting the 
Department of Veterans Affairs (VA) that is pending before the 
Subcommittee. These important bills will help ensure that veterans 
receive the best services available to them.
      H.R. 1288, the ``World War II Merchant Mariner Service Act''
    While PVA recognizes the valuable service provided by the Merchant 
Marines during World War II, PVA has no position on H.R. 1288, the 
``World War II Merchant Mariner Service Act.''
       H.R. 1494, the ``Blue Water Navy Ship Accountability Act''
    PVA supports H.R. 1494, the ``Blue Water Navy Ship Accountability 
Act.''
H.R. 1623, the ``VA Claims Efficiency Through Information Act of 2013''
    PVA supports H.R. 1623, the ``VA Claims Efficiency Through 
Information Act of 2013.'' Providing more information to veterans with 
claims pending would seem to be particularly beneficial. Requiring the 
Secretary to maintain an internet website to provide this information 
is both an efficient and accessible method to inform veterans who may 
have claims pending. In addition, providing the numbers by regional 
office (RO) allows a better and more objective examination of the 
success of the various ROs as well as their success in processing 
claims for specific medical conditions.
                               H.R. 1809
    PVA supports H.R. 1809. Like H.R. 1623, it will provide greater 
information to a veteran submitting a claim. Providing information on 
average wait times for claims processing and the percentage of claims 
approved will increase the understanding of the process and may help 
set expectations of how long a veteran may have to wait for a claim to 
be adjudicated.
                 H.R. 2086, the ``Pay As You Rate Act''
    PVA strongly supports H.R. 2086, the ``Pay As You Rate Act.'' While 
reducing the backlog and providing timely disability ratings should 
remain the number one priority for all involved, in reality it is 
critical to focus on the immediate needs of many veterans with 
disabilities who await receipt of benefits. At present, veterans who 
have been waiting for a decision on their initial claims endure 
hardships during transition from service, particularly among service 
members and veterans living with disabilities, family responsibilities, 
unemployment, and other adjustment issues. Those with complex claims 
(8+ issues, severe disabilities, mental and poly traumas) face barriers 
to health access and economic hardship and they will benefit most from 
a timely decision on an initial claim for VA benefits. It does not make 
sense that payment and benefits should be delayed even though a 
decision on a specific disability has been made by the Secretary. While 
this will not solve the problem of unmet needs for disabled veterans 
who are waiting for their final decision, it will begin providing 
access to care, benefits and financial assistance that is so critical 
to an improved quality of life.
H.R. 2138, the ``Ending VA Claims Disability Backlog and Accountability 
                                 Act''
    PVA supports H.R. 2138, the ``Ending VA Claims Disability Backlog 
and Accountability Act,'' but with a key modification. While we 
understand the desire to codify VA's plan and stated deadline to reduce 
the backlog, PVA believes that setting Memorial Day 2015 as the date 
for achieving the VA standard of a claim approved or denied within 125 
days after the date of submission with a 98 percent accuracy date is 
arbitrary. PVA is not aware that VA has ever identified a specific date 
in 2015 to reach its goal. PVA has always believed that this was an 
intentional decision by VA to allow the greatest flexibility to either 
use the end of Fiscal Year 2015 or the end of Calendar Year 2015 to 
meet its goal. PVA does not believe it matters which date is used as 
long as the requirement is met. If the VA can achieve the desired 
outcome by Memorial Day 2015, PVA would be extremely pleased; however, 
we feel that making this a legislative requirement places an additional 
burden on VA that is unnecessary. That being said, PVA supports and has 
always supported the need for milestones and targets that allow 
congressional oversight and measures of progress toward the 2015 goal 
that VA seems unwilling to more clearly establish or define.
                               H.R. 2189
    PVA does not support H.R. 2189, which would establish a commission 
or task force to evaluate the backlog of disability claims of VA. PVA 
believes that the time has passed for a commission to examine the 
claims backlog and instead aggressive oversight is needed, which the 
Committee has been attempting with VA. VA has committed to eliminating 
the backlog by 2015 and we believe that they are working toward this 
goal in good faith. In fact, the backlog has been reduced.
    Currently there are approximately 802,000 pending claims, which is 
down over 80,000 from April 2013. The number of pending claims over 125 
days has fallen in the same period by almost 90,000. Now is not the 
time to consider changes to the system which will simply be a 
distraction. Constant changes and distractions as ``new ideas'' were 
tried or studied have in many ways hurt efforts to reduce the backlog 
and should not be attempted now.
    However, there are issues that the Committee should continue to 
aggressively pursue. PVA feels that VA needs to publicly establish 
milestones and measures of effectiveness, sharing those with Congress 
and stakeholders. We find it hard to believe that VA does not have its 
own internal milestones to know if it is making progress on the 
backlog. If this is the case, the Secretary should publish these 
milestones. If VA does not have milestones, it is even more important 
for the Secretary to explain why and also to explain how he is tracking 
progress without them.
     H.R. 2382, the ``Prioritizing Urgent Claims for Veterans Act''
    PVA is unsure of the necessity of H.R. 2382, the ``Prioritizing 
Urgent Claims for Veterans Act.'' In fact, VA is already taking these 
steps when necessary. While PVA understands the intent, the legislation 
seems arbitrary. For example, the legislation uses age 70 as a 
determining factor, however, a 65 year old may be in a much more 
difficult situation and in need of claims adjudication whereas a 70 
year old may be much better off both financially and physically. In 
addition, the proposed language doesn't mention ``financial hardship'' 
as a condition. PVA would recommend this be included which would 
potentially help widows awaiting DIC and veterans on Pension with 
static, catastrophic injuries. These are the ones most often impacted 
by the backlog.
H.R. 2423, the ``Disabled Veterans' Access to Medical Exams Improvement 
                                 Act''
    PVA supports H.R. 2423, the ``Disabled Veterans' Access to Medical 
Exams Improvement Act.'' VA has had great success with the use of 
contract physicians. Extending the temporary authority until December 
31, 2016 will further support the effort to reduce the backlog and then 
provide additional authority for a year beyond VA's backlog reduction 
goal to ensure the ability to maintain the 125 day decision goal. More 
importantly, if VA misses its 2015 backlog reduction target, contracted 
physicians will still be available to continue supporting the process 
with no additional legislation required.
    Mr. Chairman, we would like to thank you once again for allowing us 
to address this legislation. PVA would be pleased to take any questions 
for the record.
Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
                            Fiscal Year 2013
    No federal grants or contracts received.
                            Fiscal Year 2012
    No federal grants or contracts received.
                            Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$262,787.

                                 <F-dash>
                             J. DON HORTON
    Dear Chairman Runyan,

    Thank you for allowing me the opportunity to submit testimony in 
support of H. R. 1288, and the forgotten services of some 10 to 30 
thousand members of the Merchant Marine who sailed on coastwise barges 
and tugs during World War II. Most have gone unrecognized for their 
gallant service in defense of this country when all were needed to 
support our troops overseas and keep the enemy from our doors. H. R. 
1288 would finally correct the travesty of not recognizing the service 
of these individuals and give the few remaining men and women a shot at 
gaining recognition as veterans.
    The United States Merchant Marine has been largely viewed by the 
general population as large ships sailing across oceans and seas 
carrying exotic cargo from one country to another. Little information 
to what actually takes place within the service is known or understood 
by the public. Most citizens have little knowledge that our Merchant 
Marine was established before our United States Navy or Coast Guard, 
and many do not know that during our nation's wars our Merchant Marine 
is looked upon as the Fourth Arm of Defense.
    As you know, the United States' effort to fight and win the 
greatest war in history was comprised of a coalition of civilians and 
servicemembers from the greatest generation this nation has ever known. 
There were three major components in that coalition, our fighting 
forces overseas, the civilian production machine here at home and, the 
United States Merchant Marine that served as the link.
    Our Merchant Marine has proven itself time and again in every war 
we have encountered. History has consistently noted the brave seamen 
who crossed oceans carrying our troops and war materials in every war, 
and who often encountered enemy actions that sent many of those brave 
souls to the bottom of the seas. Stories have been written about their 
heroic efforts to keep our shipping lanes open even while losing ships 
enemy hostilities here on our own shores during World War II. At times, 
during World War II, we were losing our ships faster than they could be 
built. The commanders of the German U-boats considered the waters off 
the east coast to be a shooting gallery because of our lack of security 
and adherence to keeping our shoreline dark. The bright lights from the 
various amusement parks and residential areas along the coastal beaches 
provided the perfect backdrop for German U-boats to pick our ships off 
at will.
    We fought World War II on a global scale, with major fighting on 
three fronts. Logistics for this war in terms of supplies reached a 
scale never since matched. The supply lines to our front lines 
stretched across both oceans. They were very vulnerable, especially at 
the very start of the war. Our nation was caught off guard by the 
magnitude of the logistical effort required to maintain our front 
lines. Every effort was made to keep our troops adequately supplied by 
working around the clock in our defense plants. Every able bodied 
person, rather it be man, woman or child stood up to do their part. 
This nation came together like no other time to produce the supplies 
required to keep that war effort moving forward. This effort has not 
been matched since, and probably will never be again.
    The task of transporting our troops and the majority of materials 
overseas fell to our Merchant Marine. The United States had a very 
small inventory of ships that could carry our troops and supplies, and 
the German U-Boats were sinking them faster than we could build new 
ones. Enemy submarine successes threatened the outcome of the war in 
the first few years. In fact, the loss of shipping along our coastline 
during the first part of the war was so great that our own government 
had to step in and instruct our news outlets not to give out the number 
of ships lost. There was fear that our seamen would refrain from 
shipping out, thereby creating critical manpower shortages. This would 
have caused shipping delays and quite possibly could have placed our 
chances of winning the war in jeopardy. Had it not been for the gallant 
efforts of merchant seamen manning vessels against threatening odds, 
the war could have ended much differently.
    The great loss of ships caused our nation to call upon another 
group of vessels that had generally been placed out of service. Our 
country had some 250-300 old wooden hulled barges that were rarely 
used. Most had long passed their effective life span. Some were built 
around the middle of the nineteenth century and their condition was 
poor. Many barges began their life as sail schooners in the mid-1800s. 
There was a short-lived belief that sails would help propel these 
barges and give the tugboats towing them a little help. By the turn-of-
the-century most had their masts removed and extra hatches added to the 
hulls to carry more cargo.
    There were some seventy companies that did business in the coastal 
trades, and about 700 barges or schooners were recorded as actively 
participating. Records indicate the first wooden hulled barge was built 
around 1856 and maybe the last around 1923. They ranged in sizes in 
tonnage from 600 to 2400 tons. During World War II there may have been 
a little more than a few hundred barges remaining to carry out this 
tradition.
    After the turn of the 20th century, companies began to send the 
barges out into larger bodies of waters. Soon the coastwise trade for 
barges was where the money was for companies. A tow of three barges 
could carry more payload of, say coal, than several locomotives could 
carrying 300 coal cars or 600 trucks carrying the same payload and at a 
fraction of the cost.
    Shortly after the outbreak of World War II, it became apparent that 
we needed every possible source of commerce to keep our supplies lines 
open. These barges were quickly called back into service even in their 
very old and primitive conditions. It was not uncommon to see ten or 
twenty tugs and their barges moving cargo up and down the coast on any 
given day. As demand for commerce grew the barges began playing a 
larger role in the defense of our country. After all, no other mode of 
transportation could offer the benefits at lesser costs. They were by 
far the most economical means to move product around the country.
    The German U-boats sank our ships faster than we could build them. 
Larger and faster ships were needed to keep our shipping lanes open and 
to keep our troops overseas supplied with badly needed materials. Here 
at home, every available means of moving war materials to our defense 
plants became a necessity, regardless of the risk.
    These barges kept alive a tradition dating back before the birth of 
this nation. Our forefathers brought this lifestyle with them when they 
landed here to establish this country. Families were traditional on 
some of the barges. This emanated from the river barges that traveled 
the major tributaries of our nation for as long as this nation has 
existed. Our major source of commerce came by river throughout our 
country. Often the crew that manned some of these barges during the 
summer school breaks was comprised solely by families. Companies who 
owned these barges looked favorably on those that were manned by 
families. It was believed families would remain on board more so than 
single seamen mainly because of the primitive living conditions 
generally found on most barges. Families tend to adapt more easily.
    Barge seamen endured a life that was extremely primitive as most 
barges were without the average necessities found ashore. There was no 
electricity, running water or the usual bathroom conveniences. Heat 
came from a simple coal stove that was used for cooking as well. Light 
from kerosene lamps was the norm. This life was hard and it left its 
mark on you. With the ever present German U-boats, young seamen matured 
fast. This was a far cry from a young man's dream of sailing the 7 
seas.
    These coastwise barge seamen were a small, dedicated and mostly 
unknown group who served in the US Merchant Marine. They made little 
news but played a very important role during World War II. They moved 
bulk cargo and war supplies to the various defense factories and power 
plants along the East Coast. Minimal news or entries in history were 
made as most gave little attention to them. They were considered by 
many as insignificant. Historians wrote limited information and they 
would only make news if something disastrous happened. Storms would 
cause sufficient damage and some would make the news if fatalities 
occurred. History passed them by and carried their records along with 
it.
    Since the younger and more able-bodied seamen preferred the large 
more modern ships, barges were more or less left to others less 
traditional crews. Some elderly seamen came back to the sea and brought 
their families to serve as members of the crew. This brought forth a 
resurge in the traditional use of barge families. Many women who were 
refused opportunities to work on the larger vessels came aboard the 
barges as crew as well. Some of the seamen that came to work on the 
barges were without the credentials now required to prove service on 
these vessels. They worked alongside those with credentials and were 
paid the same wages with the same taxes withheld. They performed the 
same work and were exposed to the same threats as the certified seamen 
were. Yet, today, many of the seamen that operated tugs and barges 
cannot prove their service because they do not have the proper 
documents that others were provided. Many were directly denied 
documents because of their age, gender or disability. Today we call 
this discrimination.
    Many seamen were considerably older than the required draft age and 
often disabled. Many were missing a leg, arm or an eye. School age 
children manned the crew positions as well as any other seamen. They 
proved their mettle. These barges carried the bulk raw war materials to 
the ports that fed the defense plants that built war supplies and 
equipment for our troops overseas. The use of these barges freed our 
larger merchant fleet to concentrate on the vital necessity of 
transporting supplies and equipment to our troops on the front lines. 
This was not a small task.
    At the start of the war, women tried repeatedly to join the US 
Merchant Marine. They were thwarted by the War Shipping Administrator 
(WSA), Admiral Emory S. Land who declared that there was no place in 
the Merchant Marine for women. By this order from the WSA, the US Coast 
Guard refused to document women who served. Women served anyway and 
performed every duty asked of them, without any formal recognition 
their work. They served on barges and other vessels, mostly as cooks 
and messmen. They were paid salaries and Social Security taxes were 
taken from their wages. They performed the same services as those with 
proper credentials on the same vessels and did it well. They deserve to 
be recognized for their service to our country.
    Efforts to gain status as seamen by the women were met with stern 
denials from the Captains of the Port (COTP) stationed at the various 
coastal ports. I was present in June of 1942, when the COTP of New York 
denied my mother and sister their official documentation as seamen. 
Instead he issued an official US Coast Guard Identification Card to my 
mother and told her my sister did not need one as she was below the age 
of 16. Children could move about freely through the security 
checkpoints on the docks if accompanied by a parent. He stated by order 
of the WSA, he was directed to deny official seaman's papers to women 
upon application.
    Thousands of other women were denied official documentation for 
service in the Merchant Marine. To this day, there has been no way for 
these women to gain their due recognition as seamen of the United 
States Merchant Marine and thus gain veterans status of this nation. A 
letter from the US Coast Guard (attached) dated 09 Apr, 2010, states, 
``The US Government did not issue mariner credentials to females during 
World War II.''
    Recent research of 29 barges and tugs brought forth over 1100 
seamen who served between 1942 and 1943. From that group there were 87 
seamen with traditionally female names who served aboard those vessels. 
That transmits to a ratio of almost 9 percent of the work-force being 
women, if one could use this finding to be an approximate ratio of 
seamen who served on coastwise vessels. In today's military service, 
where women are recognized for their service, the ration is placed at 
14%. This finding provides an astounding proportion of women serving 
during World War II in the Merchant Marine that have never been 
officially recognized as seamen and veterans. This is wrong and it 
needs to be corrected. Passing H. R. 1288 would remedy this shameful 
situation.
    Other research has brought forth two other actions that have 
inhibited seamen who served in the Merchant Marine during World War II 
from seeking recognition as veterans. The Commandant of the US Coast 
Guard's order of 20 Mar 1944 relieved the masters of tugs and seagoing 
barges of the responsibility of issuing shipping and discharge papers 
to seamen. Then, the US Maritime Administration issued orders to 
destroy ship's deck and engine logbooks in the 1970s. A US Coast Guard 
Reference Information Paper #77 dated April, 1990 refers to these 
actions.
    World War II brought about the advent of women in the military and 
they proved themselves. They earned some of our country's highest 
honors for their service. However, the women who served in the US 
Merchant Marine in World War II were denied their Official Mariner's 
credentials and have never been able to achieve what they most 
gallantly earned, veteran status. Those of us who hold this status 
perceive it as one of our most honored possessions.
    On 21 March, 2013, US Representatives G. K. Butterfield, Walter 
Jones, Mike McIntyre & Mark Meadows of North Carolina and 37 other 
Representatives introduced a bill in the House of Representatives that 
may help these coastwise seamen and women gain what has been denied 
them for more than 67 Years. H.R. 1288, the World War II Merchant 
Mariner Service Act would direct the Secretary of Homeland Security to 
allow other forms of documentation to prove service in the World War II 
Merchant Marine. Official Records have either been withheld, destroyed, 
or denied, thus preventing somewhere between 10,000 to 30,000 coastwise 
merchant seamen from gaining their rightful place as veterans of our 
country.
    I offer the following items in support of H. R. 1288, and to 
demonstrate the need for this legislation:
RATIONALE FOR HR 1288 ``WW II MERCHANT MARINERS SERVICE ACT''
    Findings 1: The US Merchant Marine Seamen of WW II gained veteran 
status under a court ruling via Schmacher, Willner, et al, V. Secretary 
of the Air Force Edward C. Aldridge, Jr 665 F Supp 41 (D.D.C 1987) 
providing they meet certain eligibility requirements.
    Findings 2: USCG Information Sheet #77 (April 1992) identifies 
acceptable forms of documentation for eligibility meeting the 
requirements pursuant to Schmacher V. Aldridge, 655 41(D.D.C 1987)

    a. Certificate of Discharge (Form 718A)

    b. Continuous Discharge Books (ship's deck/engine logbooks)

    c. Company letters showing vessel names and dates of voyages

    Findings 3: Some 10,000 to 30,000 coastwise seagoing tug and barge 
merchant seamen have been or may be denied recognition upon application 
because actions taken by government agencies (prior to P. L. 95-202) 
have removed required eligibility records from being available to the 
veteran.
    Findings 4: Commandant USCG Order of 20 March, 1944 relieves 
masters of tugs, towboats and seagoing barges of the responsibility of 
submitting reports of seamen shipped or discharged on forms 718A. This 
action removes item (a) from the eligibility list in Findings 2.
    Findings 5: USCG Information Sheet # 77 (April, 1992) further 
states ``Deck logs were traditionally considered to be the property of 
the owners of the ships. After World War II, however, the deck and 
engine logbooks of vessels operated by the War Shipping Administration 
were turned over to that agency by the ship owners, and were destroyed 
during the 1970s''. This action effectively eliminates item (b) from 
the eligibility list in Findings 2.
    Findings 6: Company letters showing vessel names and dates of 
voyages are highly suspect of ever existing due to the strict orders 
prohibiting even the discussion of ship/troop movement. Then consider 
item (c) of Findings 2 should be removed from the eligibility list. 
USCG Info Sheet # 77, page 2 refers
    Findings 7: Commandant, USCG Ltr 5739 of 09 Apr 2010 states, ``The 
US Government did not issue mariner credentials to females during the 
World War II.'' And ``The NMC now processes requests for DD 214s as a 
part of their normal business practices. This removes cost to prepare 
documents for veteran leaving no costs required.
    Findings 8: CBO preliminary cost report of 10 June, 2013: ``The 
costs associated with the attached bill language have an insignificant 
effect on direct spending over the 2014 to 2023 period''. They are 
considered De Minimis.
    Findings 9: Excerpts from Pres. Roosevelt's fireside Chat 23: On 
the Home Front (Oct. 12, 1942): ``In order to keep stepping up our 
production, we have had to add millions of workers to the total labor 
force of the Nation. In order to do this, we shall be compelled to use 
older men, and handicapped people, and more women, and even grown boys 
and girls, wherever possible and reasonable, to replace men of military 
age and fitness; to use their summer vacations, to work somewhere in 
the war industries.''
    Findings 10: After the Revolutionary War many Acts of Congress were 
enacted to provide pensions to those veterans applying for support. 
Thousands of servicemen were without documented service and remained 
without any viable means to prove service. Excerpts from documents 
retained at the NARA provide: Generally the process required an 
applicant to appear before a court of record in the State of his or her 
residence to describe under oath the service for which a pension was 
claimed. This sets precedence for using certified oaths in conjunction 
with the Social Security documents as alternative documentation.
    Findings 11: The USCG cannot provide a true estimate of Merchant 
Mariners serving in World War II. GAO/HEHS-97-196R refers. Estimates 
range from 250,000 to 410,000 from recognized historians. None of these 
historians were aware of these 10,000 to 30,000 coastwise merchant 
seamen where many served without proper credentials and did not include 
them in their above estimates... Some were elderly handicapped; others 
women and some were school children who served in a billet, drew wages 
and paid taxes. They served on the same vessels in the same hostile war 
zones and performed the same services alongside others who were 
documented. Yet, only about 90,000 merchant mariners have been 
recognized as veterans with just 1192 of these veterans are in receipt 
of compensation or pension benefits. This is a vast disparity in ratio 
of the other service branches.
    Findings 12: DOD and NARA Agreement N1-330-04-1 of Jul, 08, 2004 
puts in place a procedure to transfer military personnel files of 
individuals from all services, (including civilian personnel or 
contractual groups who were later accorder military status under the 
provisions of Public Law 95-202). This agreement affects military 
personnel records of individuals 62 years after separation from 
service. Action has taken place for all except the US Merchant Marine 
IAW P.L 95-202. This inaction by the Department of Homeland Security 
via (COMDT USCG) has caused many of the mariners to have gone 
unrecognized for their services. Many have passed without ever gaining 
recognition or benefits and soon all will be History. Only about 90,000 
out of 250,000 have ever received recognition as veterans with many 
unable to gain access because of age and health condition requiring 
assistance for others outside family. Had compliance taken place, these 
records would be available to all and providing the mariner a chance to 
being recognized many years ago and enjoying the benefits awarded to 
them via public law.
    Whereas: (1) by court order, Schumacher v. Aldridge 665 F Supp 41 
(D.D.C. 1987) provided for veteran status to certain US Merchant Marine 
seamen during WW II (07 December, 1941 to 31 December, 1946) with the 
same benefits accorded all veterans as administrated by the VA.
    Whereas: (2) President Roosevelt's speech of 12 Oct, 1942 puts in 
place the use of elderly and handicapped individuals, school children 
and women in an effort to support war efforts by replacing men of 
military age and fitness, and in stepping up our production of war 
materials for those on the front lines.
    Whereas: (3) DOD & NARA Agreement N1-330-04-1 of July 08, 2004 
provides for the transfer of military records to the National Personnel 
Records Center, St. Louis, MO for use as archival records, open to the 
public. But no action has taken place by the DHS for the mariner in 
almost 9 years causing the veteran loss of due access of his records 
that may accord him recognition as a veteran.
    Whereas: (4) HR 1288 provides for alternative records to be used in 
place of records lost, destroyed or denied for coastwise seamen 
affected and allow women and school children be recognized for their 
services rendered for the first time ever.
    Whereas: (5) Costs for HR 1288 is considered De Minimis via 
Findings 8 removing cost as a consideration.
    Together we can make a difference as these brave seamen did for us 
during WW II. They stood up for us and in doing so they kept this 
country free. The very least we can do is repay them with the 
recognition they have most graciously deserve. Let's stand up for them 
and make it possible for them to gain their rightful position as 
veterans. Will you help make it happen?
    The reason I am interested in gaining recognition for the men and 
women who manned the barges during WWII is that I was one of them and I 
know we are deserving and have been overlooked after giving so much for 
the war effort and Freedom. The tugboat Menomonee was sunk off the 
coast of Virginia on 31 Mar., 1942 at 37' 34'' N, 75'' 25'' by the 
German U-boat 754, with the loss of my brother, William Lee Horton, Jr. 
at the age of 17, while serving his country.
    Below is a summary of my family's approximate time is service 
during WW II. Many families had as much service as we did but I have 
been unable to document them to the extent of my own family from 
firsthand experience:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    <bullet>  Sadie Owney Horton was denied seaman papers in New York 
City, NY by the Maritime Commission Office when she filed for seaman's 
papers in 1942. They informed her that they were not accepting women in 
the Merchant Marines at that time. This was their policy. They issued 
her a formal USCG identification, depicted above, and were directed to 
use that for work.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Note: Trips usually originated in Hampton Roads, VA loading a cargo 
of war materials, (ore, scrap metals, sugar, salt, lumber, coal, etc.). 
Destination of these barges pointed north. Ports visited, to off load 
the cargo, were many with the nearest to Hampton Roads, VA being 
Philadelphia, PA and reaching as far north as Nova Scotia. These ports 
included Detroit, MI; Stamford, CT; Bridgeport, CT; Hartford, CT; New 
Haven, CT; New London, CT; Providence, RI; New Bedford, MA; Fall River 
MA; Boston, MA, Portland, ME; Halifax, Nova Scotia and others. There 
were 786 trips made that should have resulted in 786 discharges.
    Consider: Days at sea were days spent in the presence and fear of 
enemy submarines continuously. Waters off the US East Coast were a war 
zone 24/7 and merchant ships were constantly being attacked by German 
submarine Wolf packs. These tows moved at a pace of 2 to 6 knots and 
were sitting ducks for the taking. Threat of being attacked by the 
enemy submarines was constant. Captain W. L. Horton spent the 
equivalent of 3 years on these treacherous sub infested waters. Sadie 
Owney Horton spent about 2 years. The siblings together spent about 2.7 
years in this Atlantic host also. This was a significant courageous 
wartime undertaking for any family and recognition for their 
magnificent and heroic services and the sacrifices they made for our 
country should be noted. Collectively, the Horton family spent 12.9 
years in US Merchant Marine during WWII with over 8 years traveling 
those waters heavily infested with those hostile German submarine wolf 
packs that spread havoc on the US Merchant vessels. There were few 
military units that endured more than this length of time in any war 
zone, ever.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Additional Barges one or more of the Horton family served on 
before, during and after WWII


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    HR 1288 could help some gain recognition as a veteran. This 
legislation can correct a travesty that has gone unnoticed or ignored 
for such a long time. Costs associated with this bill have been deemed 
to have an insignificant impact on direct spending by the CBO so cost 
should not be an issue. This bill stands alone in helping these 
coastwise merchant seamen gain recognition that they have been deprived 
of due to records being withheld, destroyed, or denied. This needs to 
be corrected and soon. These seamen are leaving us at an alarming rate. 
If not now it will all be for history. We need to stand up and do what 
is right for these seamen. We must do what is right and support this 
bill.
    Thank you again for allowing me the opportunity to provide you some 
history and reasoning as to why H. R. 1288 is needed. I hope you now 
understand what this small group did to assist this nation when all 
were needed to keep us free from the enemy during a very bleak time for 
our country. They did what was right for our country and now we need to 
do what is right for these seamen.

    Very Respectfully,

    J. Don Horton, Veteran
    WW II & Korean War
    US Merchant Marine & USCG

                                 <all>

</pre></body></html>
